INVESTIGATIVE
REPORT

U.S. Census Bureau

Unsubstantiated Allegations that
the Philadelphia Regional Office
Manipulated the Unemployment
Survey Leading up to the 2012
Presidential Election to Cause a
Decrease in the National
Unemployment Rate

FOR PUBLIC RELEASE
REPORT NUMBER 14-0073
MAY 1, 2014


U.S. Department of Commerce
Office of Inspector General
Office of Investigations
Contents

Chapter 1: Introduction .................................................................................................... 1

  I.	 Executive Summary ..............................................................................................................................2

  II.	 Scope and Methodology ......................................................................................................................2

  III.	 Organization of the Report ................................................................................................................5

Chapter 2: Background ..................................................................................................... 6

  I.	 U.S. Census Bureau: Programmatic Overview...............................................................................6

  II.	 Legal and Policy Overview ............................................................................................................... 17

  III.	 Allegations to be Resolved .............................................................................................................. 18

Chapter 3: Results of Investigation into Survey Falsification Allegations ................. 19

  I.	 Our investigation found no evidence supporting the allegation that Subject 1 

      instructed his subordinates to falsify survey data ....................................................................... 19

      A.	 Factual Background ...................................................................................................................... 19

      B.	 OIG Analysis .................................................................................................................................. 27

  II.	 Our investigation found no evidence supporting the allegation that Subject 1 changed

       subordinate survey responses to manipulate data, or that Subject 1 or Subject 2 

       prevented falsification reports from being reported to Census Bureau headquarters ..... 28

      A.	 Factual Background ...................................................................................................................... 29

      B.	 OIG Analysis .................................................................................................................................. 30

   III.	 Our investigation found no evidence supporting the allegation that the national 

         unemployment rate was manipulated by the Philadelphia Regional Office in the 

         months leading up to the 2012 presidential election................................................................. 31

      A.	 Factual Background ...................................................................................................................... 32

      B.	 OIG Analysis .................................................................................................................................. 33

   IV.	 Our investigation found no evidence supporting the allegation that Fernando 

        Armstrong directed falsification on the American Housing Survey in order to meet 

        performance goals ............................................................................................................................. 37

      A.	 Factual Background ...................................................................................................................... 38

      B.	 OIG Analysis .................................................................................................................................. 39

   V.	 Our investigation found no evidence supporting allegations of widespread survey 

       data falsification in the Philadelphia Regional Office .................................................................. 39

      A.	 Factual Background ...................................................................................................................... 39

      B.	 OIG Analysis .................................................................................................................................. 40

   VI.	 Use of Polygraph Examinations ...................................................................................................... 41



REPORT NUMBER 14-0073
Chapter 4: Observations Related to Census Bureau Falsification Policies ............... 43

  I.	 Survey supervisors do not consistently use the tools available to them for detecting 

      and preventing survey data falsification ........................................................................................ 43

  II.	 Census Bureau employees suspected of falsifying data are sometimes allowed to

       continue working during the investigation ................................................................................... 46

     A.	 Advice from the Department of Commerce Office of General Counsel has 

         hindered the Census Bureau from removing survey work from suspected data 

         falsifiers............................................................................................................................................ 46

     B.	 Regional Office falsification policies are inconsistent ........................................................... 48

  III.	 The quality assurance operation in the Regional Office is not independent, creating 

        potential conflicts of interest .......................................................................................................... 50

  IV.	 Current Population Survey procedural manuals and training materials are outdated, 

       inconsistent, and do not discuss falsification ............................................................................... 51

Chapter 5: Other Observations ..................................................................................... 53

  I.	 Census Bureau communications with field staff ......................................................................... 53

     A.	 Factual Background ...................................................................................................................... 53

     B.	 OIG Analysis .................................................................................................................................. 53

  II.	 Department of Commerce Office of General Counsel handling of employees who are 

       witnesses to Congressional investigation ..................................................................................... 53

     A.	 Factual Background ...................................................................................................................... 54

     B.      OIG Analysis .................................................................................................................................. 55

Chapter 6: Recommendations ....................................................................................... 56

Appendix A: Legal Authorities ....................................................................................... 58

Appendix B: Selected Census Bureau Surveys ............................................................. 59

Appendix C: Subject Comments ................................................................................... 61





REPORT NUMBER 14-0073
Chapter 1: Introduction

On October 30, 2013, the Office of Inspector General (OIG) received information from
Complainant, a U.S. Census Bureau employee, through a web hotline complaint. Complainant
alleged that the Census Bureau’s Philadelphia Regional Office falsified data on the American
Housing Survey (AHS) and the Current Population Survey (CPS). Several weeks later, on
November 18, 2013, media reports alleged that the Philadelphia Regional Office had “faked” the
national unemployment survey (i.e., CPS) in the months leading up to the 2012 presidential
election in order to artificially decrease the unemployment rate. Since that time, media reports
have made a variety of allegations regarding widespread falsification in the Philadelphia Regional
Office, also alleging that the office, along with Census Bureau headquarters management,
covered up data falsification. In addition to the OIG, the U.S. House of Representatives,
Committee on Oversight and Government Reform, initiated an investigation based on these
allegations.

The 2013 allegations are related to an earlier OIG investigation from 2011 (Case Number 11-
0135). In 11-0135, Complainant and another Census Bureau employee, Key Witness, alleged
that they were directed to falsify CPS data by their supervisor, Subject 1, and that the
falsification was covered up by Subject 1 and his supervisor, Subject 2. Case 11-0135 did not
include allegations related to the 2012 presidential election as the allegations involved a period
before 2012. Subjects 1 and 2 denied knowledge of or involvement with any data falsification.
OIG’s investigation did not substantiate any of the allegations, and the case was closed on June
3, 2011. The Report of Investigation was sent to the Census Bureau so that it could consider
taking any administrative actions deemed necessary or appropriate. The Census Bureau did not
take any administrative action against Subjects 1 or Subject 2. As a result of repeated data
falsification confirmed by the Census Bureau, Key Witness was terminated from employment in
August 2011.

In conducting the current investigation, OIG re-considered the allegations from Case 11-0135.
OIG re-interviewed all of the witnesses and significantly expanded the scope of that
investigation. In addition, OIG thoroughly investigated the new allegations of survey falsification
in the Philadelphia Regional Office and alleged manipulation of the unemployment rate prior to
the 2012 presidential election.

Under the Inspector General Act of 1978, as amended, OIG is authorized to carry out both
investigations and audits to "promote economy, efficiency, and effectiveness in the
administration of, and . . . prevent and detect fraud and abuse in . . . [the Department's]
programs and operations." Through its investigative and audit findings and recommendations,
OIG helps protect and strengthen Department of Commerce programs and operations. As part
of our mission, we conduct criminal and administrative investigations that involve employees,
management officials, and affected Departmental programs and operations.

OIG’s Office of Investigations worked jointly with OIG’s Office of Audit and Evaluation to
investigate these allegations of data falsification in the Census Bureau’s Philadelphia Regional
Office.



REPORT NUMBER 14-0073                                                                                 1
 I.       Executive Summary

      In October 2013, OIG received information alleging that management in the U.S. Census
      Bureau’s Philadelphia Regional Office instructed staff to falsify survey responses on the AHS and
      the CPS. Following this complaint, additional allegations were presented in various media
      publications, which reported widespread data falsification in the Census Bureau’s Philadelphia
      Regional Office.

      OIG thoroughly investigated these allegations, and found no evidence that management in the
      Philadelphia Regional Office instructed staff to falsify data at any time for any reason. Further,
      we found no evidence of systemic data falsification in the Philadelphia Regional Office.
      Addressing allegations raised in the media, we found no evidence that the national
      unemployment rate was manipulated by staff in the Philadelphia Regional Office in the months
      leading up to the 2012 presidential election. To accomplish this, our analysis concluded that it
      would have taken 78 Census Bureau Field Representatives working together, in a coordinated
      way, to report each and every unemployed person included in their sample as “employed” or
      “not in labor force” during September 2012, an effort which likely would have been detected by
      the Census Bureau’s quality assurance procedures. Moreover, our analysis shows that the drop
      in the unemployment rate at that time is consistent with other indicators, including payroll 

      estimates by Moody’s Analytics and Automatic Data Processing (ADP).


      As part of our investigation, we reviewed the Census Bureau’s processes for identifying and
      taking action when data falsification is uncovered, and found that the quality assurance process
      in place creates the potential for conflicts of interest because the same supervisors who manage
      staff (and could direct the falsification of survey data) are responsible for reporting instances
      when their staff falsifies data. To remedy this situation, we recommend that the Census Bureau
      implement an independent system to check for falsification, similar to the one used during the
      Decennial Census. We also found that the CPS procedural manuals and training materials are
      outdated, inconsistent, and do not discuss prohibitions and serious consequences for falsifying
      survey data, and we recommend that they be corrected to include information about detecting
      and dealing with falsification when it occurs.

      Our investigation also found that Census Bureau employees suspected of falsifying data are
      sometimes allowed to continue working while their surveys are being examined, in part due to
      advice from the Department’s Office of General Counsel. To avoid repeated falsification, we
      recommend that the Census Bureau implement a policy that prohibits employees suspected of
      falsification from collecting survey data while concerns about potential falsification are being
      examined. We also recommend that the Census Bureau implement a mechanism to
      communicate instances of data falsification with agencies on whose behalf surveys are being
      conducted.

II.       Scope and Methodology

      OIG conducted over 100 interviews of current and former Census Bureau employees in the
      Philadelphia Regional Office, headquarters, and other Regional Offices. These interviews
      included:


      REPORT NUMBER 14-0073                                                                              2
    	 Complainant, Senior Field Representative

            o	 OIG had extensive communications with Complainant throughout the course of
               this investigation and provided multiple opportunities for Complainant to
               describe her allegations and provide substantiation. This included a recorded and
               transcribed interview, at least ten telephone conversations, and several email
               communications. Complainant was advised on numerous occasions to provide
               OIG with evidence or documentation in her possession to support her
               allegations. OIG reviewed all documentation provided by Complainant.

    	 Key Witness, former Field Representative

            o	 Key Witness was identified by the Census Bureau as a repeated data falsifier. He
               alleged that his supervisor, Subject 1, instructed him to falsify survey data. OIG
               conducted a recorded and transcribed interview of Key Witness.

    	 Philadelphia Regional Office management who were alleged to have directed or
       orchestrated falsification: Subject 1 (Survey Supervisor Office), Subject 2 (Program
       Coordinator), and Fernando Armstrong (Regional Director)

            o	 OIG conducted a recorded and transcribed interview of each of the subjects, as
               well as several follow-up interviews of each subject.

            o	 Polygraph examinations of the subjects were also conducted.

    	 Witnesses to the alleged falsification instructions identified by the complainant

    	 Current and former Philadelphia Regional Office senior management during the relevant
       time period

    	 50 Philadelphia Regional Office field staff. In these interviews, field staff were asked
       whether they had ever been pressured or ordered to cut corners to complete a survey
       or to violate Census policy.

    	 All current Philadelphia Regional Office Program Coordinators (the supervisory position
       held by Subject 2) and Survey Statisticians Office (the supervisory position held by
       Subject 1). In these interviews, the supervisors were asked whether they had ever been
       pressured or ordered to cut corners to complete a survey or to violate Census policy,
       as well as instances of suspected falsification by their subordinates.

    	 Various other current and former Philadelphia Regional Office staff, both in the field and
       in the office, deemed relevant to the investigation

    	 Representatives from Census Bureau headquarters Field Division, Human Resources,
       Employee Relations Branch, Legal, and Information Technology

    	 Chief of the Demographic Statistical Methods Division


REPORT NUMBER 14-0073                                                                               3
       Survey Directors for the CPS and the Consumer Expenditure (CE) Survey

       The Division Chief for Labor Force Statistics, the Division Chief for Data Development
        and Publications, and supervisory statisticians at the Bureau of Labor Statistics (BLS)

       Survey Statisticians from each of the Regional Offices

       New York Regional Office Director

The following documents were reviewed:

       Documents and notes provided by Complainant

       Key Witness and Complainant’s personnel files and falsification reports

       Report of Investigation, Equal Opportunity Complaint of Key Witness

       Emails regarding the August 2013 AHS

       Census Bureau training materials, policies for interviewing procedures, quality control
        and assurance processes, and performance assessment

       Various other documents deemed relevant to the investigation

The following data were analyzed:

       CE and CPS audit trails for cases worked by Key Witness

       Labor force case outcomes (e.g. unemployed, employed, not in labor force) for interviews
        conducted by Key Witness

       Statistical analysis performed by the Census Bureau related to how falsification could
        impact the national unemployment rate

       CPS quality control reports, providing reinterview results by region

       CPS workload report for Field Representatives in the Philadelphia Regional Office

       CPS audit trails for cases completed by Subject 1

       Reinterview cases worked by Subject 1 and Subject 2

       Reinterview results for Field Representatives who were suspected of falsifying data
        during August and September 2012

       Labor force case outcomes (e.g. unemployed, employed, not in labor force) for employees
        suspected of falsifying data during August and September 2012



REPORT NUMBER 14-0073                                                                              4
              BLS Current Employment Statistics data

              ADP/Moody’s Analytics employment report data

III.       Organization of the Report

       Chapter 2 of this Report provides background information, including a programmatic overview
       of the Census Bureau, an overview of the relevant legal and policy authorities, and the
       allegations to be resolved. Chapter 3 addresses allegations of survey falsification in the Census
       Bureau’s Philadelphia Regional Office. Chapter 4 contains our observations and findings related
       to Census Bureau falsification policies. In Chapter 5, we discuss other observations from our
       investigation. Chapter 6 contains our recommendations to the Census Bureau as a result of the
       findings in this investigation.

       Appendix A contains legal authorities. Appendix B is a table providing information about
       selected Census Bureau surveys. Appendix C contains the subjects’ comments to this Report.




       REPORT NUMBER 14-0073                                                                           5
     Chapter 2: Background
I.        U.S. Census Bureau: Programmatic Overview

     According to the Census Bureau, its mission is to:

          serve as the leading source of quality data about the nation's people and economy. We honor
          privacy, protect confidentiality, share our expertise globally, and conduct our work openly.
          We are guided on this mission by scientific objectivity, our strong and capable workforce, our
          devotion to research-based innovation, and our abiding commitment to our customers.1

     As prescribed in the Constitution of the United States, during each year that ends in a zero
     (e.g., 2010, 2020), the Census Bureau counts the population of the United States in order “to
     apportion seats in the House of Representatives and to determine state legislative district
     boundaries.”2 This is referred to as the “Decennial Census.” The Census Bureau also conducts
     numerous ongoing household and business surveys, as well as other scheduled surveys and 

     censuses,3 which are managed by staff at Census Bureau headquarters in Suitland, Maryland;4

     the Bureau’s six regional offices in Atlanta, Chicago, Denver, Los Angeles, New York, and
     Philadelphia;5 and three call centers in Maryland, Indiana, and Arizona.6 Census Bureau
     headquarters staff manage the development of the Census Bureau’s surveys, including creating
     and managing maps, survey content and methodology, sample design and selection, and
     analyses.7 Many of the Census Bureau’s surveys are reimbursable surveys that are sponsored or
     paid for by other agencies, which may have input into the survey design and analyses8—the
     Current Population Survey is one such survey. See table 1 (next page) for the Census Bureau’s
     total budget authority and workforce.

     Census Bureau data are used by federal and state governments to help distribute more than 

     $400 billion in resources every year to local, state, and tribal governments.9 Census Bureau 




     1
       U.S. Census Bureau, About Us: Mission Statement, http://www.census.gov/aboutus/mission.html (last visited Apr. 3, 

     2014).

     2
       U.S. Census Bureau, Frequently Asked Questions: How Are Census Data Used, 

     https://ask.census.gov/faq.php?id=5000&faqId=979 (last visited Apr. 3, 2014) [hereinafter Census Website: FAQ on 

     Data]; see also U.S. Constitution. Art. I, § 2.

     3
       See U.S. Census Bureau, About Us: About What We Do, http://www.census.gov/aboutus/ (last visited Apr. 3, 2014).

     4
       U.S. Census Bureau, About Us; Who We Are, https://www.census.gov/aboutus/who.html (last visited Apr. 3, 2014).

     5
       See U.S. Census Bureau, Regional Offices: Census Bureau Regional Office Boundaries, http://www.census.gov/regions/

     (last visited Apr. 3, 2014) [hereinafter Census Website: Regional Offices].
     6
       See U.S. Census Bureau, National Processing Center: Contact the National Processing Center, 

     http://www.census.gov/npc/contactus.html (last visited Apr. 3, 2014).

     7
       OIG Communication with Associate Director of Field Operations, U.S. Census Bureau, March 25, 2014

     [hereinafter Associate Director of Field Operations Communication].

     8
       Id.

     9
       Census Website: FAQ on Data, supra.


     REPORT NUMBER 14-0073                                                                                               6
data are also used by private sector businesses to help make decisions about market demand
and characteristics of the labor force, as well as by policy makers to assess the impact of
governmental programs and to help plan economic development, including the placement of
schools, hospitals, job training centers, grocery stores, restaurants, car dealerships, and other
businesses.10

              Table 1. U.S. Census Bureau’s Budget Authority and Employees

                                                           FY 2013            FY 2014           FY 2015a
             Total Budget Authority                     $940,110,000      $1,280,391,000     $1,554,863,000

             Full-Time-Equivalent Funded Positions          10,107             9,868              11,211

           Source: U.S. Census Bureau
           a
             The President’s budget request.

The Census Bureau conducts a number of household surveys—the Current Population Survey
is one of the Bureau’s major ongoing surveys and is sponsored jointly by the Census Bureau and
the Bureau of Labor Statistics.11 Initiated in 1940 by the Works Progress Administration and
originally known as the “Monthly Report of Unemployment,”12 the CPS is the “primary source
of labor force statistics for the population of the United States.”13 Data collected by the CPS
provide BLS with the numbers used to generate the national unemployment rate; the CPS also
“provides data on a wide range of issues related to employment and earnings.”14 Additionally,
the CPS gathers “extensive demographic data” that illustrate both national labor market
conditions, as well as those of various population groups.15 The Census Bureau also conducts a
number of other major household surveys, including the American Housing Survey16 and the
Consumer Expenditure Survey17 (see appendix B for a selection of additional Census Bureau




10
   Id.; see also, e.g., U.S. Census Bureau, Current Population Survey: A Joint Effort Between the Bureau of Labor Statistics
and the Census Bureau, http://www.census.gov/cps/ (last visited Apr. 3, 2014) [hereinafter Census Website: CPS].
11
   Id.
12
   U.S. Census Bureau, Current Population Survey: History of the Current Population Survey, 

http://www.census.gov/cps/about/history.html (last visited Apr. 3, 2014) [hereinafter Census Website: CPS History].

13
   Census Website: CPS, supra.

14
   Id.; see also Census Website: CPS History, supra.

15
   Census Website: CPS, supra; see also Census Website: CPS History, supra.

16
   See U.S. Census Bureau, American Housing Survey: About, http://www.census.gov/programs-surveys/ahs/about.html 

(last visited Apr. 3, 2014). Sponsored by the U.S. Department of Housing and Urban Development (HUD), the
AHS has collected housing and demographic data from both occupied and vacant housing units since 1973. Id. AHS
data are used “to monitor supply and demand, as well as changes in housing conditions and costs, in order to
assess housing needs[,] . . . advise the executive and legislative branches in the development of housing policies[,
and] . . . improve efficiency and effectiveness and design housing programs appropriate for different target groups.”
Id.
17
   See Bureau of Labor Statistics (BLS), Consumer Expenditure Survey, http://www.bls.gov/cex/ (last visited Apr. 3,
2014) (“The survey data are collected for the BLS by the U.S. Census Bureau.”). Sponsored by BLS, the CE collects
“information on the buying habits of American consumers.” Id. CE data are used to update the Consumer Price


REPORT NUMBER 14-0073                                                                                                     7
surveys). The allegations in this investigation concern ongoing household surveys and do not
implicate the Decennial Census.

Census Bureau interviewers collect survey data by one of two methods: 1) Field
Representatives conduct Computer Assisted Personal Interviews (CAPI) by visiting sampled
households to interview a household member in person or arranging a telephone interview at
another time; and (2) call center interviewers conduct Computer Assisted Telephone
Interviews with household members by telephone.18

Field Organization and Regional Office Management Structure

In 2012, the Census Bureau reorganized its field structure, which had been in place since
1961.19 The reorganization included closing six of the twelve Regional Offices (Boston,
Charlotte, Dallas, Detroit, Kansas City, and Seattle) and changing its Regional Office
management structure by creating new work-from-home supervisory positions.20 According to
the Census Bureau, the purpose of this reorganization was to take advantage of technological
advancements (e.g., virtual office technology) and enhance the performance of its field staff
while reducing costs, but not altering what the Census Bureau considers the “core of its data
collection effort, the professional interviewer staff” (i.e., the Field Representative).21 Field
Representative duties remain unchanged; however, the Census Bureau added supervisors in the
field, reducing the ratio of Field Representatives to supervisors.22 For a comparison of the
previous Regional Office management structure to the current structure, see figure 1 on next
page.




Index. Id.; see also U.S. Census Bureau, Los Angeles Region: Consumer Expenditure Survey,
http://www.census.gov/regions/los_angeles/www/programs_surveys/surveys/ce.php (last visited Apr. 3, 2014).

18
   Computer Assisted Telephone Interviewing is almost always reserved only for the ACS and the CPS; most other

surveys use only CAPI; the New York Housing Vacancy survey uses a paper questionnaire. Associate Director of Field 

Operations Communication, supra.

19
   U.S. Census Bureau, U.S. Census Bureau Regional Office Realignment (undated), 

http://www.census.gov/regions/pdf/RO_realignment_OnePager_FINAL.pdf (last visited Apr. 3, 2014) [hereinafter, 

Census Office Realignment].

20
   Id.; U.S. Census Bureau, General Questions and Answers (Q&As) on Field Realignment (undated) 

http://www.census.gov/regions/pdf/General_QAs_FINAL.pdf (last visited Apr. 3, 2014).

21
   Census Office Realignment, supra, 3

22
   See U.S. Census Bureau, New York Regional Director, Update on Census Bureau Field Activities, New Jersey State 

Data Center, Network Meeting (June 19, 2013) [hereinafter Update on Census Bureau Field Activities], slide 10.



REPORT NUMBER 14-0073                                                                                            8
                                      Figure 1. Current and Previous

                                  Regional Office Management Structure

                                    Current                                        Previous

                    Regional Director                                                       Regional Director



                                           Positions in green        Positions in red
                    Assistant Regional
                                              were added             were eliminated        Assistant Regional
                        Directors           under the new,           under the new,              Director
                                           current structure        current structure


                        Program                                                                Program
                       Coordinators                                                           Coordinators

                                                        Work From Home

                    Survey Statisticians     Survey Statisticians      Senior Field         Supervisory Survey
                          Office                    Field             Representatives          Statisticians




                      Survey Clerks           Field Supervisors     Field Representatives     Survey Clerks




                                            Field Representatives




                   Source: OIG analysis of U.S. Census Bureau information

Regional Office management includes one Regional Director, two Assistant Regional Directors,
and several Program Coordinators.23 All survey data are collected by Regional Office staff.24 The
employees most directly responsible for data collection include Survey Statisticians Office who
work in the Regional Office; Survey Statisticians Field who work from home; Field Supervisors
who work from home; and Field Representatives who work from home.25 Although these
employees work from home—meaning they do not have an office at any Census Bureau
location—most of their work consists of interviewing survey respondents by visiting
households in their geographic area. Nationwide, there are approximately 60 Survey
Statisticians Office, 48 Survey Statisticians Field, and 600 Field Supervisors who manage and
supervise groups of approximately 8,000 Field Representatives.26 Philadelphia Regional Office
Program Coordinators and Survey Statisticians Office and Field manage survey operations in



23
   Id.
24
   Id.
25
   Id. at slides 10-14.
26
   U.S. Census Bureau, Use of Virtual Desktop Infrastructure for Work at Home Staff (March 19, 2013); Email from
Associate Director of Field Operations, U.S. Census Bureau, to OIG (March 31, 2014) (on file with OIG)
[hereinafter Associate Director of Field Operations Email].


REPORT NUMBER 14-0073                                                                                              9
Delaware, Kentucky, Maryland, Ohio, Pennsylvania, Tennessee, Virginia, West Virginia, and the
District of Columbia.27 See figure 2 for a map of the current Regional Office boundaries. 28

                  Figure 2. Current Census Bureau Regional Office Boundaries (left)
                     and the Philadelphia Regional Office Geography (right)




     Source: U.S. Census Bureau

A Survey Statistician Office typically manages the workload for one survey at a time, which
includes making assignments and ensuring that all work is completed on time. Survey
Statisticians Office also hire and train new Field Representatives, supervise quality assurance,
and conduct survey analytics and analyses.29

Each Survey Statistician Field supervises the Field Supervisors within a smaller part of the
region, known as a Survey Statistician Field Area. These areas are largely determined by
population density and usually include several counties.30 Each Survey Statistician Field Area is
further divided into Field Supervisor Areas that include entire or partial counties, depending on
geographic makeup and population density.31 Each Field Supervisor usually manages all Field
Representatives who work in his or her area.32 While a Survey Statistician Office usually only




27
   Census Website: Regional Offices, supra.

28
   U.S. Census Bureau, Census Bureau Regional Office Boundaries: New Structure as of January 2013 (undated) 

http://www.census.gov/regions/pdf/new_ro_map_final.pdf (last visited Apr. 3, 2014); U.S. Census Bureau, 

Philadelphia Region, http://www.census.gov/regions/philadelphia (last visited Apr. 3, 2014).

29
   OIG Interview of Los Angeles Regional Office Survey Statistician Field, U.S. Census Bureau [hereinafter Los

Angeles Survey Statistician Field Interview].
30
   Id.
31
   Id.
32
   Id.


REPORT NUMBER 14-0073                                                                                             10
works on one survey, Survey Statisticians Field and Field Supervisors generally work on all
active surveys within their specific geographic areas.33 Field Representatives may work on one
or more surveys, depending on availability and skill.34

In the Philadelphia region, each of the four Program Coordinators supervises at least one
Survey Statistician Field.35 One Program Coordinator supervises the Regional Office support
staff.36 Another Program Coordinator supervises all of the Survey Statisticians Offices.37 Each
Survey Statistician Office manages one or several survey clerks, whose main role is to provide
technical assistance to field staff (i.e., Field Representatives, Field Supervisors, Survey
Statisticians Field), such as locating addresses and respondents with the use of automated tools
and mapping software (see figure 3).38

          Figure 3. Current Philadelphia Regional Office Management Structure

                                                                                   Regional
                                                                                   Director



                                           Assistant Regional                                             Assistant Regional
                                                Director                                                       Director



                         Program                                      Program                    Program                 Program
                        Coordinator                                  Coordinator                Coordinator             Coordinator



             Administration         Survey                 Survey                Survey            Survey                 Survey
                  IT             Statistician(s)        Statistician(s)        Statisticians    Statistician(s)        Statistician(s)
               Recruiting            Field                  Field                 Office            Field                  Field
              Geography
              Partnership


                                     Field                  Field                  Survey           Field                  Field
                                  Supervisors            Supervisors               Clerks        Supervisors            Supervisors




                                     Field                  Field                                   Field                  Field
                                Representatives        Representatives                         Representatives        Representatives




           Source: U.S. Census Bureau

           Employees who hold positions in blue boxes work in the Regional Office; employees who hold positions
           in brown boxes work from home.




33
   See id.

34
   Id.

35
   Associate Director of Field Operations Email, supra.

36
   Id.

37
   Id.

38
   Los Angeles Survey Statistician Field Interview, supra.



REPORT NUMBER 14-0073                                                                                                                    11
The Field Representative position can either be a temporary or permanent position.39 Each
Field Representative agrees to the conditions of employment, which include a “mixed-tour
work schedule [that] provides for periods of full-time, part-time, and/or intermittent work to
accommodate fluctuating workloads.”40 Field Representatives are paid hourly based on the
amount of time worked during each bi-weekly pay period.41 A recent recruitment bulletin
provides the salary range for Field Representatives hired in the Philadelphia region as $12.07 –
$16.73 per hour at the GS-03 level and $13.55 – $18.78 per hour at the GS-04 level.42 The
number of hours a Field Representative works each pay period depends on survey workloads in
the Field Representative’s area.43 Field Representatives must be available to work flexible hours
to accommodate afternoon, evening, and weekend work.44

Survey Data Collection

Census Bureau survey interview periods vary: data collection on the CE spans the entire
month,45 while CPS data collection occurs over a ten-day period, beginning during the week of
the 19th each month.46 Prior to the beginning of each interview period, Survey Statisticians
Office assign all of the upcoming cases to the Field Representatives.47 Each Field
Representative’s assignment includes a number of cases within the specific area in which they
were hired to work.48 Each case includes an address or description of a structure believed to be
a housing unit.49 Assignments are transmitted, through the Census Bureau’s secured server, to
the Field Representative’s Census Bureau-issued laptop computer.50 It is then up to the Field
Representative—with support from Regional Office staff (i.e., Survey Statisticians Office and
survey clerks) and the Field Representative’s Field Supervisor and Survey Statistician Field—to
complete that assignment on time and according to the response-rate and production-rate
standards unique to the geographic location of each case.51




39
   Field Representative Recruiting Bulletin No. 29-FR-001(May 21, 2013) [hereinafter Field Representative Recruiting
Bulletin].

40
   U.S. Census Bureau, Recruitment Bulletin 1 (Jan. 10, 2014), 

http://www.census.gov/regions/philadelphia/www/jobs/pdf/PH%20Recruitment%20Bulleting%20-
%20Grade%203%20and%204.pdf (last visited Apr. 4, 2014) [hereinafter Recruitment Bulletin] (No. PH-14-001).

41
   See, e.g., id. (showing the hourly rate for the Field Representative position advertised).
42
   Id.
43
   Field Representative Recruiting Bulletin, supra.
44
   See Recruitment Bulletin, supra, at 2.
45
   See, e.g., U.S. Census Bureau, Chicago Region: Consumer Expenditure Survey,
http://www.census.gov/regions/chicago/www/programs_surveys/surveys/ce.php (last visited Apr. 4, 2014).
46
   See, e.g., U.S. Census Bureau, Chicago Region: Current Population Survey,
http://www.census.gov/regions/chicago/www/programs_surveys/surveys/cps.php (last visited Apr. 4, 2014).
47
   Associate Director of Field Operations Communication, supra.
48
   Id.
49
   Id.
50
   Id.
51
   Id.


REPORT NUMBER 14-0073                                                                                                  12
For household surveys, the process that leads to an interview (or noninterview52) begins when
the Field Representative receives his or her assignment, which consists of a list of addresses
(and, depending on the survey, names and/or phone numbers) where the Field Representative is
expected to interview a household member.53 Next, the Field Representative makes an initial
personal visit to the household that ends with: (1) a complete or partial interview, which entails
the respondent answering all or some of the survey questions; 54 (2) an unsuccessful contact
attempt—no eligible household member was home or available;55 (3) a noninterview, stemming
from either the inability to locate an eligible household member or a refusal from an eligible
household member;56 or (4) another type of noninterview, such as a demolished household or a
vacant or seasonal household. 57

If the Field Representative conducts a partial interview or encounters an unsuccessful contact
situation, he or she must attempt to obtain contact information and schedule a time to
complete the interview over the telephone or in person.58 If the Field Representative completes
the interview, the survey data that the Field Representative entered into the laptop are
transmitted securely to headquarters for processing.59 If an eligible household member refuses
to complete an interview, the Field Representative is instructed to contact his or her Field
Supervisor to discuss the case and determine how to proceed.60

Any case that a Field Representative is unable to complete because (1) all eligible household
members refused to participate or (2) the Field Representative was unable to locate an eligible
household member during the interview period results in a type-A noninterview.61 These types
of noninterviews negatively impact a Field Representative’s performance because they are
included in the formula used to calculate response rates.62




52
   Noninterviews fall into one of three categories: (1) Type-A noninterviews are housing units that are occupied by
persons eligible for interview but information has not been obtained, due to refusal, no one is home, all eligible
persons are temporarily absent or other circumstances that prevent an interview; (2) Type-B noninterviews are
housing “[u]nits which are either unoccupied or which are occupied solely persons not eligible for interview;”
these types of units are vacant, occupied by persons who have a usual residence elsewhere, or are occupied by
military personnel only; and (3) Type-C noninterviews are ineligible for interview because they no longer qualify as
housing units because, for example, the unit was demolished or converted to commercial use. U.S. Census Bureau,
Current Population Survey: Field Representative’s Job Aid Booklet 2013 and 2014, 27 (Nov. 1, 2012) [hereinafter CPS
Booklet].
53
   Associate Director of Field Operations Communication, supra.
54
   Id.; U.S. Census Bureau, Current Population Survey: Quality Data at the Right Time for the Best Value (Instructor Guide), 

4-8-53 (Rev. Jan. 2013) [hereinafter CPS: Instructor Guide].

55
   Associate Director of Field Operations Communication, supra.

56
   Id.
57
   Id.
58
   Id.
59
   Id.
60
   Id.
61
   Id.
62
   Id.


REPORT NUMBER 14-0073                                                                                                     13
Quality Assurance

The Census Bureau’s quality assurance for survey data includes reinterview, which is a follow-
up interview with a household that was previously interviewed as part of regular survey data-
collection operations.63 Through reinterview, the Census Bureau measures error in survey data
that stems from three sources: (1) interviews that are not conducted according to proper
procedure, (2) instances of data falsification, and (3) response error that arises from specific
questions on the survey.64 Reinterview varies slightly for each survey, but the primary purpose
of CPS reinterview is to identify Field Representatives who are not following proper
interviewing procedures as well as those Field Representatives who may be intentionally
falsifying or misclassifying survey data.65

There are three types of CPS reinterview: (1) Quality Control reinterview, which is randomly
selected by Census Bureau headquarters and is conducted on 2 percent of the CPS workload;
(2) Response Error reinterview, which is also randomly selected by Census Bureau
headquarters and is conducted on 1 percent of the CPS workload; and (3) Supplemental Quality
Control reinterview, in which a supervisor is able to select a Field Representative for
reinterview who the supervisor suspects may not be following procedures or is possibly
falsifying survey data.66 Both of the Quality Control types of reinterview help detect and deter
noncompliance with proper procedures and identify Field Representatives who may be falsifying
survey data; Response Error reinterview is used to evaluate CPS questions and assess the
response error of specific CPS questions.67

When selected for Quality Control reinterview, inexperienced Field Representatives (those
with less than five years’ experience) have five cases selected, while experienced Field
Representatives have eight. However, inexperienced Field Representatives are selected more
frequently for Quality Control reinterview than their experienced colleagues.68 Under the new,
reorganized field structure, the Field Representative’s Field Supervisor typically conducts
reinterview.69

Both Quality Control reinterview and Supplemental Quality Control reinterview employ the
use of a reinterview instrument on the reinterviewer’s laptop.70 Quality Control reinterview




63
   See generally U.S. Census Bureau, Current Population Survey Office Manual (Mar. 2010) [hereinafter CPS Office
Manual].
64
   See id. at 10-2.
65
   See id.
66
   See id. at 10-2 to 10-6.
67
   Id. at 10-2 to 10-4.
68
   Census CPS Office Manual, supra, at 10-4 to 10-5.

69
   See Email from Assistant Division Chief for Evaluation and Research, Field Division, U.S. Census Bureau, to OIG

(Jan. 13, 2014) (on file with OIG) [hereinafter Assistant Division Chief for Evaluation and Research, Field Division Email

1].

70
   See U.S. Census Bureau, Current Population Survey CAPI: Reinterviewer’s Manual (Apr. 2013).



REPORT NUMBER 14-0073                                                                                                    14
does not ask the same questions as in the initial interview.71 Rather, the reinterview instrument
includes questions that are used to verify that the Field Representative actually visited the
household or conducted the original interview over the telephone; the instrument also includes
questions about the accuracy of the original interview and the characteristics of the original
interviewer.72 Finally, the instrument allows the reinterviewer to probe the respondent to
detect possible falsification.73

If a reinterviewer notes a discrepancy in a case—that is, the reinterview conflicts with the data
originally collected by the Field Representative or the household members deny that an
interview occurred—the Survey Statistician Office sends a “Five-Day Letter” to the Field
Representative asking the Field Representative to explain the discrepancy.74 The letter gets its
name because the Field Representative has five days to respond to the alleged discrepancy.75 If
the Survey Statistician Office is satisfied with the Field Representative’s response, no further
action is taken.76 If the Field Representative fails to respond or the Survey Statistician Office is
not satisfied with the Field Representative’s response, the Survey Statistician Office begins an
investigation process which includes a Field Representative Data Falsification Followup and Quality
Assurance Form (Form 11-163), a document the Survey Statistician Office uses to investigate the
suspected instance and record pertinent information.77 During the investigative process, the
Survey Statistician Office may determine that the Field Representative falsified data, find that the
investigation was inconclusive, clear the Field Representative of falsification but confirm that the
Field Representative failed to follow survey procedures, or clear the Field Representative of any
wrongdoing.78 The investigative process ends when the supervisor completes all relevant
sections of Form 11-163 and the Regional Director approves the final decision and action based
on the merits of the suspected falsification and findings of the investigation.79 A number of
actions can be proposed, including (1) a proposal to remove the Field Representative due to
confirmed falsification or other reasons, (2) a formal warning and supplemental reinterview
and/or observation of the Field Representative, (3) a decision to retrain the Field
Representative, (4) allow the temporary assignment to expire, or (5) to not issue an action




71
   See id. at 3-6.

72
   See id.

73
   See id. 

74
   OIG Interviews of Los Angeles Regional Office CPS Survey Statistician Office, New York Regional Office CPS 

Survey Statistician Office, Chicago Regional Office CPS Survey Statistician Office, Philadelphia Regional Office CPS 

Survey Statisticians Office, and Denver Regional Office CPS Survey Statistician Office [hereinafter OIG Interviews of

Survey Statisticians Office]. 

                                                                                                             C75 See id.
76
   See id.
77
   Census CPS Office Manual, supra, at 10-23 to 10-24.
78
   See U.S. Census Bureau Form 11-163, Field Representative Data Falsification Followup and Quality Assurance Form
[hereinafter Form 11-163].
79
   Id.


REPORT NUMBER 14-0073                                                                                                15
because the Field Representative resigned or was cleared of falsification.80 The supervisor uses
Form 11-163 to record the final action. 81

Performance

A Field Representative’s performance is largely based on how many interviews he or she
conducts each interview period and how efficiently those interviews are completed.82 Field
Representatives are assessed on how many interviews they can complete relative to
noninterviews (e.g., household respondent refusal or the inability to locate an eligible household
member at an occupied housing unit).83 For many surveys, different response-rate standards
apply to the geographic location of each case a Field Representative works. Cases fall into one
of three “clusters” which represents how difficult an interview may be to obtain in that area.84

A Field Representative is also assessed by how much time he or she spends working on each
completed case.85 Each survey has specific production standards (measured in minutes per case)
by which Field Representatives are evaluated.86 Unlike response-rate standards that are
clustered and consistent across the regions, production standards are stratified within each
region according to the expected necessary length of time to pursue and complete an interview
in each unique geographic area.87 There are six possible strata: Metropolitan Areas (MA) that
are “highly urban”; Urban areas (A) and Suburban areas (B), which are classified as “suburban to
low density urban”; and Rural areas (C), (D), or (E), with C being “less rural” and E being “most
rural.”88 According to the Census Bureau, its goal when establishing clusters is to develop Field
Representative performance standards that are equitable and reflect the difficulties of the
various interviewing environments while ensuring that Field Representatives working in similar
environments would be held to the same performance standards across the country.89




80
   OIG Interviews of Survey Statisticians Office, supra; Form 11-163, supra.

81
   See Census CPS Office Manual, supra, at 10-23 to 10-27.

82
   U.S. Census, Bureau, ROAM 2013-37 National Performance Standards (Apr. 19, 2013) [hereinafter National

Performance Standards].
83
   Id.
84
   See Memorandum from Chief, Field Division, U.S. Census Bureau, to All Regional Directors (Apr. 19, 2013) (on
file with OIG) (discussing “Procedures for Implementing the National Performance Standards for Response
Rates”).
85
   FYs 2013 and 2014 CPS Production Standards (Minutes/Case) as entered in CARMN [hereinafter CPS Production

Standards]; National Performance Standards, supra.

86
   See, e.g., U.S. Census Bureau, FY 2013/2014 CPS Production Standards (Minutes/Case) (undated). 

87
   Email from Assistant Division Chief for Evaluation and Research, Field Division, U.S. Census Bureau, to OIG

(Feb. 26, 2014) (on file with OIG) [hereinafter Assistant Division Chief for Evaluation and Research, Field Division Email

II]; CPS Production Standards, supra. 

88
   See, e.g., id.; see also Assistant Division Chief for Evaluation and Research, Field Division Email II, supra.
89
   Id.


REPORT NUMBER 14-0073                                                                                                    16
      Progress reviews for Field Representatives take place at approximately the midpoint of each
      fiscal year.90 Final performance reviews occur near the end of each fiscal year.91 In addition to
      response-rate and production standards, which are performance standards used to evaluate
      Field Representatives on the “Interviewing, Listing and Sampling” critical element, Field
      Representatives are rated on their “Customer Service,” “Production and Cost,” and
      “Administrative and Automation Activities.”92 At the final performance review, supervisors
      apply a rating level to each critical element, and each critical element is weighted to arrive at a
      final score upon which the Field Representative’s final performance rating is based.93

II.        Legal and Policy Overview

      The U.S. Census Bureau is governed by Title 13 of the United States Code.94 Title 13 provides
      authority for the work the Census Bureau does, as well as protection for the information it
      collects from individuals and businesses.95 “The Census Bureau collects information to produce
      statistics.”96 “Private information is never published,” and “Census Bureau employees are sworn
      to protect confidentiality.”97 Pursuant to Title 13, Census Bureau employees who falsify survey
      data are subject to felony prosecution, with penalties of up to five years in prison, a fine of
      $2,000, or both.98

      The Census Bureau is also guided by its own policies and manuals. The Bureau produces
      standardized training materials for all surveys. The materials are designed to ensure that every
      Survey Statistician Office, Survey Statistician Field, Field Supervisor, and Field Representative
      working on a survey follows the same procedures anywhere in the country.

      For example, the CPS utilizes an instructor’s guide99 and a supervisor’s script100 to lead initial
      classroom training for all new hires on the survey. Newly hired Field Representatives use a
      general workbook101 and a final exercise workbook102during classroom training. Initial CPS



      90
         See, e.g., U.S. Census Bureau, The Field Representative Performance Plan (Rev. Aug. 2012).
      91
         See, e.g., id.
      92
         See, e.g., id.
      93
         See, e.g., id.
      94
         See U.S. Census, History: Title 13, U.S. Code,
      https://www.census.gov/history/www/reference/privacy_confidentiality/title_13_us_code.html (last visited Apr. 6,
      2014).
      95
         See id.
      96
         Id.
      97
         Id.
      98
         13 U.S.C. § 213. 

      99
         See, e.g., CPS: Instructor Guide, supra. 

      100
          See, e.g., U.S. Census Bureau, CPS CAPI 277B, Final Review Exercise, Supervisor’s Script – Moschetti Household, CPS 

      CAPI Initial Training (Rev. Jan. 2013).

      101
          See, e.g., U.S. Census Bureau, CPS CAPI 270A, Classroom Workbook for CPS CAPI Initial Training (Rev. Jan. 2013).

      102
          U.S. Census Bureau, CPA CAPI 277A, Final Exercise CPS CAPI Initial Training (Rev. Jan. 2013). 



      REPORT NUMBER 14-0073                                                                                                   17
       classroom training lasts four days;103 new hires also complete an 8-hour self-study course prior
       to classroom training.104After completing all training requirements, new hires are observed in
       the field for one to two days during their initial interview period by Field Supervisors or Survey
       Statisticians Field.105 During this period, a new Field Representative is observed doing every
       aspect of the job—from how to enter payroll data to troubleshooting technical problems with
       the laptop computer while in the field—including interviewing household respondents.106

III.         Allegations to be Resolved

       The allegations raised by Complainant, Key Witness, and the media can generally be broken
       down into the following questions. The details of each allegation, as well as our factual findings,
       analysis, and conclusions for each question, can be found in chapter 3.

             	 Did Subject 1 instruct subordinates to falsify survey data?

             	 Did Subject 1 change subordinate survey responses to manipulate data, and did he or
                Subject 2 prevent falsification reports from being reported to Census Bureau
                headquarters?

             	 Did any alleged data falsification on the Current Population Survey in the Philadelphia
                Regional Office have a measurable impact on the unemployment rate leading up to the
                2012 presidential election?

             	 Did Philadelphia Regional Office Director Fernando Armstrong direct falsification on the
                American Housing Survey in order to meet performance goals?

             	 Are there any indications of systemic survey data falsification in the Philadelphia Regional
                Office?




       103
           U.S. Census Bureau, CPS CAPI 270, Training Guide for CPS CAPI Initial Training (Rev. Jan. 2013) [hereinafter CPS
       CAPI 270], Instructions-8.

       104
           U.S. Census Bureau, CPS CAPI 271, Preclassroom Self-Study for CPS CAPI Initial Training (Rev. Jan. 2013) [hereinafter

       CPA CAPI 271].

       105
           See U.S. Census Bureau Form 11-62A, ON-THE-JOB TRAINING AND INDUCTION CHECKLISTS FOR N1, 

       N2 AND N3 [hereinafter On-The-Job Training & Induction Checklists].

       106
           Id.



       REPORT NUMBER 14-0073                                                                                                  18
 Chapter 3: Results of Investigation into Survey 

 Falsification Allegations

I.	    Our investigation found no evidence supporting the allegation that Subject 1
       instructed his subordinates to falsify survey data

 Complainant and Key Witness alleged that their supervisor, Subject 1, instructed them to falsify
 Current Population Survey responses in July 2010. Subject 1 has consistently denied ever
 instructing Complainant or Key Witness to falsify data.

       A.	 Factual Background

          Key Witness was a Field Representative in Washington, DC, which is part of the
          Philadelphia Regional Office.107 Complainant is a Senior Field Representative in the
          Washington, DC metro region.108 Subject 1 is a Survey Statistician Office in the
          Philadelphia Regional Office. Although the official title of Subject 1’s position changed
          with the Census Bureau reorganization, he has remained in the same position
          throughout his tenure at the Census Bureau.109 Subject 1 has worked on a variety of
          surveys over the years, including, but not limited to, the CPS and the AHS.110

          Although Key Witness, Complainant and Subject 1 all described Complainant as Key
          Witness’s first-line supervisor,111 Senior Field Representatives did not have any official
          supervisory duties.112 It was a common misconception that Senior Field Representatives
          were supervisors and many acted as such and served as de facto supervisors for Field
          Representatives. The evidence supports that this was the case with respect to




 107
     OIG Investigative Record Form (“IRF”): Interview of Key Witness, Former Field Representative, U.S. Census
 Bureau, Attach. 1 at Tr. 608-09 [hereinafter OIG IRF: Key Witness Interview].
 108
     See OIG IRF: Interview of Complainant, Senior Field Representative, U.S. Census Bureau, Attach. 1 at Tr. 52-57
 [hereinafter OIG IRF: Complainant Interview]. Although the Senior Field Representative position was eliminated as
 part of the 2012 Census Bureau reorganization, some field staff, including Complainant, remain in Senior Field
 Representative positions, either because they declined or were not selected for the Field Supervisor position. OIG
 Case Note 69, Communication with Fernando Armstrong.
 109
     OIG IRF: Interview of Subject 1 I, Survey Statistician, U.S. Census Bureau, Attach. 1 at Tr. 115-35 [hereinafter
 OIG IRF: Subject 1 Interview I].
 110
     Id. at Tr. 184-242.
 111
     OIG IRF: Key Witness Interview, supra, at Attach. 1 at Tr. 961-63; OIG IRF: Complainant Interview, supra, at Attach. 1

 at Tr. 453-59, 839-42; OIG: IRF Subject 1 Interview I, supra, at Attach. 1 at Tr. 145-49.

 112
     See U.S. Census Bureau, Recruiting Bulletin (June 19, 2013) (No. NYRO-12-36061-002).



 REPORT NUMBER 14-0073                                                                                                    19
        Complainant and Key Witness. Both Key Witness and Complainant reported to Subject
        1.113

        Between July 22 2010, and March 2, 2011, Key Witness received eight Five-Day Letters
        noting discrepancies in his survey assignments (see table 2).114

                               Table 2. Key Witness’s Five-Day Letters

                        Date                 Interview Period and Survey
                        July 20, 2010        May 2010 Consumer Expenditures Diary
                        July 22, 2010        June 2010 Consumer Expenditures Quarterly
                        August 24, 2010      June 2010 Consumer Expenditure Diary
                        August 24, 2010      July 2010 Consumer Expenditure Quarterly
                        August 31, 2010      August 2010 Current Population Survey
                        September 29, 2010   August 2010 Consumer Expenditure Quarterly
                        February 9, 2011     January 2011 Current Population Survey
                        March 2, 2011        February 2011 Current Population Survey

                     Source: U.S. Census Bureau

        In total, the Five-Day Letters identified discrepancies in 15 cases. Nine of the cases
        involved falsification, where the survey respondent reported during reinterview that he
        or she had not spoken with Key Witness.115 In two cases, the survey respondent


113
    OIG IRF: Subject 1 Interview I, supra, at Attach. 1 at Tr. 145-60 (stating that because Key Witness reported to
Complainant and Complainant reported to Subject 1, Subject 1 was Complainant’s first-line supervisor and Key
Witness’s second-line supervisor).
114
    Memorandum from Supervisor 1, Program Coordinator, U.S. Census Bureau, to Key Witness, Field
Representative, U.S. Census Bureau (July 20, 2010) (May 2010 CE Diary Survey Assignment) (on file with OIG)
[hereinafter Five-Day Letter 1]; Memorandum from Supervisor 1, Program Coordinator, U.S. Census Bureau, to Key
Witness, Field Representative, U.S. Census Bureau (July 22, 2010) (June 2010 CE Quarterly Survey Assignment)
(on file with OIG) [hereinafter Five-Day Letter 2]; Memorandum from Supervisor 1, Program Coordinator, U.S.
Census Bureau, to Key Witness, Field Representative, U.S. Census Bureau (Aug. 24, 2010) (Reinterview of June
2010 CE Diary Survey Assignment) (on file with OIG) [hereinafter Five-Day Letter 3]; Memorandum from
Supervisor 1, Program Coordinator, U.S. Census Bureau, to Key Witness, Field Representative, U.S. Census
Bureau (Aug. 24, 2010) (Reinterview of July 2010 CE Quarterly Survey Assignment) (on file with OIG) [hereinafter
Five-Day Letter 4]; Memorandum from Subject 2, Program Coordinator, U.S. Census Bureau, to Key Witness, Field
Representative, U.S. Census Bureau (Aug. 31, 2010) (Reinterview of August 2010 CPS Survey Work) (on file with
OIG) [hereinafter Five-Day Letter 5]; Memorandum from Subject 2, Program Coordinator, U.S. Census Bureau, to
Key Witness, Field Representative, U.S. Census Bureau (Sept. 29, 2010) (Reinterview of August 2010 CE Quarterly
Survey Assignment) (on file with OIG) [hereinafter Five-Day Letter 6]; Memorandum from Subject 2, Program
Coordinator, U.S. Census Bureau, to Key Witness, Field Representative, U.S. Census Bureau (Feb. 9, 2011)
(Reinterview of January 2011 CPS Survey Work) (on file with OIG) [hereinafter Five-Day Letter 7]; Memorandum
from Subject 2, Program Coordinator, U.S. Census Bureau, to Key Witness, Field Representative, U.S. Census
Bureau (March 2, 2011) (Reinterview of February 2011 CPS Survey Work) (on file with OIG) [hereinafter Five-Day
Letter 8].
115
    See Five-Day Letter 1, supra; Five-Day Letter 2, supra; Five-Day Letter 4, supra; Five-Day Letter 5, supra.


REPORT NUMBER 14-0073                                                                                            20
        reported in reinterview that Key Witness’s interview was ten minutes long, when,
        according to the Five-Day Letter, the average time to complete the survey at issue is 70
        minutes 116 (an indication that at least some of the data for that respondent may have
        been falsified). The remaining four cases involved Key Witness not using his Census
        Bureau laptop during the interview to input the survey data and other failures to follow
        interview procedures.117

        Key Witness responded to the Five-Day Letters, offering explanations as to why he
        purportedly acted appropriately in each identified instance of the alleged
        discrepancies.118 On August 31, 2010, in his response to the August 24, 2010 Consumer
        Expenditure Quarterly Five-Day Letter, Key Witness stated:

             I find it interesting that I am being investigated for falsification in part because of the
             length of an interview. When in fact, I have been told by survey supervisor [Subject 1]
             to send in cases as completed interviews when I had not interviewed the household.119

        On September 9, 2010, in response to the August 31, 2010 CPS Five-Day Letter, Key
        Witness further stated:

             It is interesting that a legitimate completed interview of a household is being
             investigated when around July 26, 2010 I had been told by survey supervisor [Subject 1]
             to send in cases as completed interviews for that month when I had not interviewed




116
    See Five-Day Letter 4, supra; Five-Day Letter 5, supra.

117
    See Five-Day Letter 3, supra; Five-Day Letter 6, supra; Five-Day Letter 7, supra; Five-Day Letter 8, supra.

118
    Memorandum from Key Witness, Field Representative, U.S. Census Bureau, to Supervisor 1, Program 

Coordinator, U.S. Census Bureau (July 26, 2010) (Response to CE May 2010 Diary Assignment) (on file with OIG)
[hereinafter Five-Day Letter 1 Key Witness Response]; Memorandum from Key Witness, Field Representative, U.S.
Census Bureau, to Supervisor 1, Program Coordinator, U.S. Census Bureau (July 26, 2010) ) (Response to CE
Quarterly June 2010 Survey Assignment) (on file with OIG) [hereinafter Five-Day Letter 2 Key Witness Response];
Memorandum from Key Witness, Field Representative, U.S. Census Bureau, to Supervisor 1, Program
Coordinator, U.S. Census Bureau (Aug. 31, 2010) (Response to Reinterview of June 2010 CE Diary Survey
Assignment) (on file with OIG) [hereinafter Five-Day Letter 3 Key Witness response]; Memorandum from Key
Witness, Field Representative, U.S. Census Bureau, to Supervisor 1, Program Coordinator, U.S. Census Bureau
(Aug. 31, 2010) (Response to Reinterview of July 2010 CE Quarterly Survey Assignment) (on file with OIG)
[hereinafter Five-Day Letter 4 Key Witness Response]; Memorandum from Key Witness, Field Representative, U.S.
Census Bureau, to Subject 2, Program Coordinator, U.S. Census Bureau (Sept. 9, 2010) ) (Response to
Reinterview of August 2010 CPS work) (on file with OIG) [hereinafter Five-Day Letter 5 Key Witness Response];
Memorandum from Key Witness, Field Representative, U.S. Census Bureau, to Subject 2, Program Coordinator,
U.S. Census Bureau (Oct. 6, 2010) (Response to August 2010 CEQ Assignment) (on file with OIG) [hereinafter
Five-Day Letter 6 Key Witness Response]; Memorandum from Key Witness, Field Representative, U.S. Census
Bureau, to Subject 2, Program Coordinator, U.S. Census Bureau (Feb. 14, 2011) (Response to January 2011
Reinterview Memorandum) (on file with OIG) [hereinafter Five-Day Letter 7 Key Witness Response]; Memorandum
from Key Witness, Field Representative, U.S. Census Bureau, to Subject 2, Program Coordinator, U.S. Census
Bureau (March 9, 2011) (Response to February 2011 Reinterview) (on file with OIG). [hereinafter Five-Day Letter 8
Key Witness Response].
119
    Five-Day Letter 4 Key Witness Response, supra.


REPORT NUMBER 14-0073                                                                                          21
            the household that month. Further he stated that he would “cover it”, during the
            reinterview process.120

        Philadelphia Regional Office management reviewed Key Witness’s allegations in the fall
        of 2010 and concluded that Subject 1 had not given Key Witness any directions to falsify
        data.121

        On October 7, 2010, Key Witness filed an Equal Employment Opportunity (EEO)
        complaint of employment discrimination on the basis of race and age and repeated these
        allegations of falsification against Subject 1.122 The Department of Commerce, Office of
        Civil Rights, subsequently opened an investigation. Although focused on whether the
        Census Bureau discriminated against Key Witness because of his race and age, the
        Office of Civil Rights investigator obtained sworn declarations from several third-party
        witnesses concerning Key Witness’s allegations of Subject 1 directing him to falsify
        survey data.123

        In June and July 2010, Complainant also received several Five-Day Letters regarding
        discrepancies in her survey responses.124 Complainant responded to each of the alleged
        discrepancies, offering explanations as to why she acted appropriately in each identified
        instance of purported discrepancies.125 On November 5, 2010, Complainant provided a
        written explanation to the Census Bureau’s Employee Relations Branch, alleging, among
        other complaints, that

            [Subject 1] told me to falsify CPS data to “get Fernando [Armstrong] off his back”, he
            needed the numbers.” He also told me to tell my team members. I told him to tell them
            himself. He did. He told [Key Witness] to make cases interviews even if he didn’t
            interview anyone and he would cover him in reinterview. I told [Key Witness]
            repeatedly not to do it. I also told [Subject 1] not to do it and he stated that he “needed




120
    Five-Day Letter 5 Key Witness Response, supra.
121
    See OIG IRF: Interview of Fernando Armstrong 1, Philadelphia Regional Office Director, U.S. Census Bureau,
Attach. 1 at Tr. 623-51 [hereinafter OIG IRF: Armstrong Interview 1]; OIG IRF: Interview of Supervisor 2, Former
Philadelphia Assistant Regional Director, U.S. Census Bureau, Attach. 1 at Tr. 260-90; see also U.S. Dep’t of
Commerce Office of Civil Rights, Report of Investigation: Equal Opportunity Complaint of Key Witness,
Complaint No. 10-63-03132, Ex. 29 (Apr. 2011) [hereinafter Key Witness Equal Opportunity Report] (email from
Subject 1 to Fernando Armstrong, providing response to Key Witness’s allegations, dated Sept. 14, 2010).
122
    Key Witness Equal Opportunity Report, supra, Ex. 2 (Oct. 7, 2010, Complaint of Employment Discrimination).
123
    See Key Witness Equal Opportunity Report, supra.

124
    Memorandum from Supervisor 1, Program Coordinator, U.S. Census Bureau, to Complainant, Senior Field

Representative, U.S. Census Bureau (June 15, 2010) (May 2010 Survey of Income and Program Participation (SIPP) 

Assignment) (on file with OIG); Memorandum from Subject 2, Program Coordinator, U.S. Census Bureau, to 

Complainant, Senior Field Representative, U.S. Census Bureau (July 22, 2010) (Reinterview of June 2010 CPS) on

file with OIG). 

125
    Memorandum from Complainant, Senior Field Representative, U.S. Census Bureau to Supervisor 1, Program 

Coordinator, U.S. Census Bureau (June 21, 2010) (SIPP Reinterview Discrepancies) (on file with OIG); 

Memorandum from Complainant, Senior Field Representative, U.S. Census Bureau to Subject 2, Program 

Coordinator, U.S. Census Bureau (July 25, 2010) (CPS Reinterview Discrepancies) (on file with OIG).



REPORT NUMBER 14-0073                                                                                         22
            the numbers”. I inquired about [Subject 2] and he stated that “[Subject 2] would be okay,
            he would cover it also”. . . . [Subject 1] kept his end of the deal and covered [Key
            Witness] in reinterview.126

        The Employee Relations Branch referred Key Witness and Complainant’s
        allegations of survey data falsification to OIG on December 3, 2010.127 OIG
        subsequently opened an investigation into Subject 1’s alleged falsification (Case
        Number 11-0135).

        Key Witness was interviewed by OIG on January 20, 2011.128 He admitted that on
        one or two occasions he recorded that he had interviewed a person whom he did
        not actually interview.129 Key Witness also repeated his allegations regarding a July
        26, 2010, conversation in which Subject 1 allegedly instructed Key Witness to falsify
        survey data, and Subject 1 stated that he would cover for Key Witness should he be
        caught.130 In addition, Key Witness stated that he discussed the phone call with his
        immediate supervisor, Complainant, who allegedly told him that she was aware that
        Subject 1 intended to ask Key Witness to falsify data.131 Likewise, on January 21,
        2011, Key Witness signed a sworn declaration in connection with his Office of Civil
        Rights complaint providing substantially the same account of Subject 1’s alleged
        instructions to falsify survey data.132

        Complainant was interviewed by OIG on January 21, 2011, and provided
        substantially the same information as in her November 5, 2010, report to the
        Employee Relations Branch.133 Likewise, on February 15, 2011, Complainant signed
        a sworn declaration in connection with Key Witness’s Office of Civil Rights
        complaint also providing substantially the same information.134 In a follow-up
        interview the next day, Complainant advised the Office of Civil Rights investigator
        that on July 27, 2010, Subject 1 left her a voicemail concerning Key Witness.135
        Complainant alleged that in the voicemail message, Subject 1 informed Complainant



126
    Memorandum from Complainant, Senior Field Representative, U.S. Census Bureau (undated) (on file with OIG)
[hereinafter Complainant Memorandum] (emphasis in original).
127
    Hotline tip from Census Bureau Employee Relations Branch, Case No. 11-0135 (Dec. 3, 2010) (discussing
possible falsification).
128
    OIG IRF: Interview of Key Witness, Field Representative, U.S. Census Bureau (Case No. 11-0135) [hereinafter
OIG IRF: Key Witness 2011 Interview].
129
    Id. at 1.
130
    Id.
131
    Id.
132
    See Key Witness Equal Opportunity Report, supra, Ex. 8 (Jan. 21, 2011, Declaration of Key Witness).
133
    See OIG IRF: Interview of Complainant, Senior Field Representative, U.S. Census Bureau (Case No. 11-0135)
[hereinafter OIG IRF: Complainant 2011 Interview].
134
    See Key Witness Equal Opportunity Report, supra, Ex. 10 (Feb. 15, 2011, Declaration of Complainant).
135
    See id. Ex. 10 at 6 (Investigator’s Memorandum Regarding Follow-up Interview of Complainant, dated Feb. 16,
2011).


REPORT NUMBER 14-0073                                                                                         23
         that he had talked to Key Witness about sending in cases as complete, and
         reminded Complainant to tell her other team members to do the same.136
         Complainant stated that she let Supervisor 3, a Survey Statistician who was serving
         as a temporary Program Coordinator in the Philadelphia Regional Office, and EEO
         Counselor listen to the message.137

         Supervisor 3 and EEO Counselor provided sworn statements as part of the Office
         of Civil Rights investigation and each confirmed that Complainant played them a
         voicemail in 2010.138 According to Supervisor 3:

             In late summer of 2010, Complainant, Senior Field Representative, Philadelphia Regional
             Office, approached me and asked me to listen to a voicemail message that she had
             received. I am not sure if [Key Witness] was mentioned in the voicemail message that I
             listened to; however, I believe the voice on the message was the voice of [Subject 1]. I
             do not recall his exact words and my interpretation of what I heard is [Subject 1] was
             asking that if he ([Key Witness]) had cases where he had got interviews the previous
             month, that he ([Subject 1]) would need the cases to be interviews for the current
             month. In my opinion, that implied falsification.139

         EEO Counselor advised the Office of Civil Rights investigator that sometime in 2010,
         Complainant “contacted her and requested that she listen to a voicemail message.”140
         According to EEO Counselor, “the voice in the message was a male voice,” identified
         himself as “[first name of Subject 1]” and stated, “The numbers are needed because the
         survey numbers are down. Headquarters is requesting these numbers. I need you to get
         in contact with [Key Witness] and we need to push the numbers through.”141 EEO
         Counselor did not remember the male voice say anything along the lines of “sending in
         cases as complete cases.”142

         Subject 1 denied Key Witness and Complainant’s allegations to both OIG and Office of
         Civil Rights investigators.143 Subject 1 claimed that he “made calls asking everyone to do
         whatever they can to get these interviews even if they got partial household
         information. In the conversation, I never mentioned falsification or re-interview . . . .”144




136
    See id.

137
    See id.

138
    See id. Exs. 11, 12.

139
    Id. Ex. 11 (Feb. 16, 2011, Declaration of Supervisor 3).

140
    Id. Ex. 12 (Investigator’s Memorandum Regarding Interview of EEO Counselor, dated Feb. 16, 2011).
	
141
    Id.
142
    Id.
143
    See OIG IRF: Interview of Subject 1, Supervisory Survey Statistician (Case No. 11-0135) [hereinafter OIG IRF:
Subject 1 2011 Interview]; Key Witness Equal Opportunity Report, supra, Ex. 13 (Feb. 2, 2011, Declaration of Subject
1).
144
    Id. at 2.


REPORT NUMBER 14-0073                                                                                                  24
         A Report of Investigation was prepared by the Office of Civil Rights investigator
         regarding Key Witness’s EEO complaint.145 The EEO investigation does not make any
         findings.146 Rather, it compiles the evidence gathered during the investigation for later
         use at the adjudicatory phase.147 After the investigation, Key Witness requested a
         hearing before an EEO administrative law judge; however Key Witness withdrew his
         complaint during the hearing and therefore no decision was made.148

         OIG’s investigation in Case No. 11-0135 did not substantiate any of the allegations, and
         the case was closed on June 3, 2011.149 The OIG’s Report of Investigation was sent to
         the Census Bureau on June 30, 2011, so that it could consider taking any administrative
         actions deemed necessary or appropriate.150 The Census Bureau did not take any
         administrative action against Subject 1.151

         The Census Bureau proposed Key Witness’s removal from service on July 22, 2011, for
         falsifying survey data and failing to follow Census Bureau procedures.152 Key Witness
         was ultimately removed from his position (i.e., terminated) effective August 25, 2011.153

         All of the witnesses to this allegation (i.e., Subject 1 instructing Key Witness and
         Complainant to falsify in 2010) were interviewed again by OIG in 2013 or 2014 in
         connection with this investigation. OIG also conducted additional investigative work,
         including over 100 additional interviews of Census Bureau personnel and a review of
         relevant data, policies, and documents.

         Key Witness and Complainant provided substantially the same account of their
         purported conversations with Subject 1 and his alleged voicemail message for
         Complainant.154 Complainant added the allegation that Subject 1 stated, “I got them in
         reinterview,” which she understood to mean that Subject 1 was “going to cover them in



145
    Key Witness Equal Opportunity Report, supra.
146
    OIG Case Note 78, Receipt of Information from Chief Investigator, Office of Civil Rights, Department of
Commerce.
147
    Id.
148
    Id.
149
    See OIG Report of Investigation, Case No. 11-0135 (June 2, 2011).
150
    Memorandum from OIG to Human Resources Specialist, U.S. Census Bureau (Case No. 11-0135) (June 30, 

2011) (on file with OIG) (sending Report of Investigation to U.S. Census Bureau).

151
    Email from Employee Relations Branch, U.S. Census Bureau to OIG (Case No. 11-0135) (Sept. 22, 2011) (on file 

with OIG).

152
    Letter from Subject 2, Program Coordinator, U.S. Census Bureau, to Key Witness, Field Representative, U.S. 

Census Bureau (July 22, 2011) (on file with OIG). As the letter notes, the Census Bureau had previously issued

Key Witness a letter proposing to remove him from his position as a Field Representative on October 26, 2010. 

That letter was withdrawn.

153
    Letter from U.S. Census Bureau to Key Witness, Field Representative, U.S. Census Bureau (Aug. 24, 2011) (on

file with OIG).

154
    See OIG IRF: Key Witness Interview, supra, at Attach. 1 at Tr. 50-71, 266-294; OIG IRF: Complainant Interview, supra, 

at Attach. 1 at Tr. 493-816.



REPORT NUMBER 14-0073                                                                                                  25
         reinterview.”155 When asked for his recollection of the voicemail that Complainant
         played for him in 2010, Supervisor 3 stated that his memory was fresher when he gave a
         statement in 2011 regarding that voicemail and that OIG should rely on that
         statement.156 EEO Counselor stated that while she recalled Complainant playing her a
         voicemail, she did not remember the specifics.157 Although EEO Counselor recalled that
         the voicemail had some connection to falsification, she was uncertain if the voicemail
         mentioned falsification or if the connection to falsification was due to statements made
         to her by Complainant.158

         Subject 1 again denied the allegations. Regarding the alleged voicemail he left for
         Complainant, Subject 1 confirmed that he left voicemail messages for Complainant (and
         other subordinates) encouraging them to complete surveys, but denied that any
         messages directed or encouraged falsification.159 Subject 1 informed OIG that in his
         voicemail to Complainant, he may have stated that he expected interviews from the
         previous month to be interviews this month.160 However, Subject 1 stated that this
         simply reflects his expectation that since the Field Representative was able to obtain an
         interview from the same household the previous month, the Field Representative should
         be able to do it again because there is an eligible household member who has already
         voluntarily participated in the survey.161 Subject 1 stated that he did not believe that this
         was improper, and he did not suggest that Key Witness, Complainant, or anyone else
         falsify their interviews.162 Subject 1 denied making any statements regarding using
         reinterview to cover up any falsification.163

         Regarding the purported conversation with Key Witness, Subject 1 stated that the only
         reason he would have called Key Witness was if Key Witness had not transmitted his
         work or he was behind.164 Specifically, he stated:

              So the call would be to . . . make sure that if we’re behind, he needs to get his work in .
              . . whatever it takes, get a partial interview, he needs to start, start turning work in.
              That’s the gist of the whole conversation . . . it’s nowhere, anywhere in that
              conversation where it says I want you to falsify data; I want you to send it in as




155
    OIG IRF: Complainant Interview, supra, at Attach. 1 at Tr. 799-813.
156
    OIG IRF: Interview of Supervisor 3 II, Survey Statistician, U.S. Census Bureau.
157
    OIG IRF: Interview of EEO Counselor, U.S. Census Bureau.
158
    Id.
159
    OIG IRF: Interview of Subject 1 III, Survey Statistician Office [hereinafter OIG IRF: Subject 1 Interview III].
160
    Id.
161
    Id.
162
    Id.
163
    Id.
164
    OIG IRF: Subject 1 Interview I, supra, at Attach. 1 at Tr. 453-63.


REPORT NUMBER 14-0073                                                                                                 26
             completed interviews, not at all. We tell them to get as much as they can in an
             interview. So we get – some data is better than no data.165

      B. OIG Analysis

         The evidence supports that Subject 1 left a voicemail message for Complainant in 2010.
         The statements of two independent, third-party witnesses (Supervisor 3 and EEO
         Counselor) provide corroboration to the existence of this voicemail and that the voice
         on the message was that of Subject 1’s. In addition, Subject 1 admits that he left
         voicemail messages for Complainant during this time period.

         However, OIG is unable to confirm the precise contents of the voicemail message.
         Complainant did not retain the message nor was it ever provided in electronic form or
         transcribed for any third parties. As such, OIG is unable to analyze the contents of the
         message. The third-party witnesses who heard the voicemail message have varying
         recollections of its contents, but, importantly, neither recalls the message specifically
         directing falsification.

         We did not find any evidence to support any oral conversations between Subject 1 and
         either Key Witness or Complainant where Subject 1 purportedly instructed his
         subordinates to falsify data. There are no recordings of any such conversations. Subject
         1 denies the allegations made by Key Witness and Complainant, and his denial is
         supported by our investigation. OIG conducted extensive investigative activities to
         uncover whether there were other examples of falsification instructions by Subject 1 to
         any of his other subordinates in addition to the ones alleged. No other instances were
         identified. For example, OIG interviewed a sample of 50 field staff in the Philadelphia
         Regional Office. None of them reported ever being asked by a supervisor to falsify
         data.166 Moreover, in the more than 100 interviews conducted by OIG as part of this
         investigation, no witnesses other than Key Witness or Complainant reported any
         falsification concerns relating to Subject 1.

         In sum, our investigation found no evidence supporting the allegation that Subject 1
         instructed his subordinates to falsify data. OIG concludes that while Subject 1 did leave a
         voicemail message for Complainant in 2010, there is a lack of evidence to support any
         direct instruction to falsify data. At most, the voicemail message from Subject 1 appears
         to have been vague and poorly worded, which could have led to it being interpreted as
         an instruction to falsify survey data.




165
   Id. at Attach. 1 at Tr. 459-69.

166
   OIG IRF: Interviews of Philadelphia Regional Office Field Representatives and Field Supervisors [hereinafter OIG

IRF: Philadelphia Regional Office Field Staff Interviews].



REPORT NUMBER 14-0073                                                                                             27
II.	    Our investigation found no evidence supporting the allegation that Subject 1
        changed subordinate survey responses to manipulate data, or that Subject 1 or
        Subject 2 prevented falsification reports from being reported to Census
        Bureau headquarters

  As explained in chapter 3.I, Key Witness alleges that Subject 1 stated that he would conceal
  Key Witness’s data falsification. Specifically, Key Witness alleges that Subject 1 stated he would
  “‘cover it’, during the reinterview process.”167 In addition, Complainant alleges that Subject 1
  stated, “I got them in reinterview,” and that he is “going to cover them in reinterview.”168
  Complainant also alleges that Subject 1 told her not to worry because Subject 2, Subject 1’s
  supervisor, was going to help cover up Key Witness’s falsification.169 Complainant further
  alleges that Subject 1 prevented falsification reports that she had written on Key Witness from
  reaching Census Bureau headquarters in an effort to cover up Key Witness’s falsification.170
  Complainant further alleges that Subject 1 changed her work by recoding interviews and
  deleting notes.171

  While it is unclear from Key Witness and Complainant’s allegations what it means to “cover”
  or “g[e]t them” in reinterview, it appears to indicate an alleged statement by Subject 1 that he
  would take affirmative steps during the reinterview process to ensure that Key Witness’s
  falsification would not be discovered. Theoretically, this could be accomplished by (1) altering
  Key Witness’s survey data to comport with any inconsistencies found during reinterview; or (2)
  manipulating the reinterview process (i.e., Subject 1 personally conducting reinterviews, or
  involving other Philadelphia Regional Office employees in the cover up/conspiracy, and not
  reporting any inconsistencies found in Key Witness’s survey data).

  Additionally, Complainant claims that Subject 2 deleted her emails and tampered with her work
  in order to cover up the falsification and discredit her.172 Complainant further claims that
  messages, which she sent through the Census Bureau’s Regional Office Survey Control
  (ROSCO) system to the CPS account, were deleted or never reached their intended recipients,
  and that Subject 2 monitored the CPS ROSCO account.173 Census Bureau staff use ROSCO to
  electronically manage data collection activities. With ROSCO, staff can review regular and
  reinterview assignments, assign those cases, track survey progress, and close out survey




  167
      Five-Day Letter 5 Key Witness Response, supra.
  168
      OIG IRF: Complainant Interview, supra, at Attach. 1 at Tr. 799-813; Complainant Memorandum, supra.
  169
      OIG IRF: Complainant 2011 Interview.

  170
      Id.

  171
      Id.
  172
      Email from Complainant, Senior Field Representative, U.S. Census Bureau, to EEO Counselor, U.S. Census 

  Bureau (Oct. 3, 2010) (on file with OIG); Complainant Memorandum, supra, at 2.

  173
      OIG Case Note 66, Receipt of Information from Complainant.



  REPORT NUMBER 14-0073                                                                                          28
operations on their computers. Complainant also claims that Subject 2 had access to her emails
and was the only person who had access.174

Subjects 1 and 2 have denied any involvement in manipulating subordinate’s survey responses,
tampering with emails, or otherwise interfering with reports of falsification.175

      A. Factual Background

         Subject 2 is a Program Coordinator in the Philadelphia Regional Office.176

         In 2010, Census Bureau field staff did not have traditional email accounts. Rather, they
         used an internal electronic communication system called “ROSCO” that “did not fully
         operate as email.”177 The Chief Information Officer for the Census Bureau explained,
         “The exchange of messages was limited to/from the Regional Office/Survey
         Supervisor/Clerk to an individual Field Representative or Group of Field
         Representatives.”178 From his or her laptop, a Field Representative “could compose and
         send a message to a . . . survey account or an All Supervisor account.” 179 For example, a
         Field Representative could send a message to the CPS account. Multiple individuals had
         access to a survey’s ROSCO account, including the Regional Director, Assistant
         Regional Directors, Program Coordinators, as well as the Survey Supervisors and survey
         clerks assigned to that survey.180 The ROSCO system was mostly used by the survey
         clerks and Survey Supervisors.181 At no time did Subject 2 (or any single Philadelphia
         Regional Office employee) have exclusive access to the CPS ROSCO account.182




174
    Complainant Memorandum, supra, at 2.

175
    See OIG IRF: Subject 1 Interview I, supra, at Attach. 1 at Tr. 1578-80; OIG IRF: Subject 1 Interview III, supra; OIG IRF:

Subject 1 2011 Interview, supra; OIG IRF: Interview of Subject 2 II, Program Coordinator, U.S. Census Bureau

[hereinafter OIG IRF: Subject 2 Interview II]; OIG IRF: Interview of Subject 2, Program Coordinator, U.S. Census 

Bureau (Case No. 11-0135).

176
    OIG IRF: Interview of Subject 2, Program Coordinator, U.S. Census Bureau [hereinafter OIG IRF: Subject 2 

Interview I], Attach 1. at Tr. 125-26.

177
    See OIG IRF: Interview of Chief Information Officer II, U.S. Census Bureau 1-2 and attachments (attachments 

include responses by Chief, Technologies Management Office, Field Directorate, U.S. Census Bureau) [hereinafter

OIG IRF: Chief Information Officer Interview II].

178
    Id. at 1.

179
    Id.

180
    OIG IRF: Interview of Fernando Armstrong II, Philadelphia Regional Office Director, U.S. Census Bureau

[hereinafter OIG IRF: Armstrong Interview II].

181
    Id.

182
    Id.


REPORT NUMBER 14-0073                                                                                                       29
         The Census Bureau has since changed the field staff communications system. In June
         2011, field staff obtained an official @census.gov email address to communicate with
         other Census Bureau employees.183

      B. OIG Analysis

         OIG did not find any evidence to support allegations of Subject 1 or Subject 2 tampering
         with subordinate’s survey responses or deleting their emails. To the contrary, there is
         evidence to support a finding that no such tampering occurred.

         When a Field Representative enters survey data, the system generates an audit trail
         (also known as a “trace file”): each entry screen, field update, and entered value is
         logged by the system and time-stamped.184 If a Census Bureau employee modifies survey
         data after the initial entry, the audit trail would list the specific fields that were
         updated.185 A supervisor cannot login as a subordinate and change survey responses. 186
         The reinterview process flagged 15 of Key Witness’s cases as potential falsifications,
         including four CPS, nine CEQ, and two CED entries.187 To determine whether any
         supervisors edited Key Witness’s electronic survey responses to cover up falsification,
         OIG reviewed the audit trails for each of the 15 cases. For each case, we found that the
         data fields were only entered a single time. In other words, after Key Witness’s initial
         entry, the audit trails do not indicate that Subject 1, Subject 2, or anyone else modified
         the data. If a supervisor modified the data collected by Key Witness, the modifications
         would have appeared in an audit trail. Additionally, we reviewed the audit trails for all of
         Subject 1’s completed CPS cases during July and August 2010,188 the dates alleged in the
         complaint, and did not find evidence that he altered Key Witness or anyone else’s cases
         in an attempt to cover up falsification.

         An alternative way for a supervisor to “cover” falsification would be to personally
         conduct reinterview on Key Witness’s cases and approve the results even if evidence of
         falsification was found. During July and August 2010, the dates alleged in the complaint,
         Subject 2 did not conduct reinterview on any cases, and Subject 1 only conducted
         reinterview on 11 cases, none of which belonged to Key Witness.189 Thus, we did not



183
    OIG IRF: Interview of Chief Information Officer, U.S. Census Bureau, Attach. 1 at 1 [hereinafter OIG IRF: Chief
Information Officer Interview 1].
184
    Email summarizing call with Census Bureau Information Technology representative (Case No. 11-0135)
[hereinafter 2011 IT Email].
185
    Id.
186
    Id.
187
    Key Witnes CED and CEQ audit trails/trace files provided by CE Survey Director, U.S. Census Bureau (on file 

with OIG); Key Witness CPS audit trails/trace files provided by CPS Survey Director, U.S. Census Bureau (on file 

with OIG). 

188
    Subject 1 CPS audit trails/trace files provided by CPS Survey Director, U.S. Census Bureau.

189
    U.S. Census Bureau, Reinterview Case History for Subjects 1 and 2 July-August 2010, provided by CPS Survey

Director, U.S. Census Bureau (on file with OIG).



REPORT NUMBER 14-0073                                                                                            30
            find evidence that Subject 1 and/or Subject 2 “covered” Key Witness’s cases during the
            reinterview process in this manner.

            Further, OIG conducted extensive investigative activities to uncover other examples of
            supervisors altering survey responses. No other instances were identified. For example,
            OIG interviewed a sample of 50 field staff in the Philadelphia Regional Office. None of
            them reported any concerns of supervisors changing survey responses.190

            Complainant has been inconsistent and provided differing accounts of the events and
            circumstances regarding Subject 2 allegedly tampering with her emails to prevent her
            from reporting falsification concerns. Interviews of Census Bureau Information
            Technology personnel indicate that it was not possible for Subject 2—or anyone in
            Philadelphia Regional Office management—to access a field employee’s ROSCO
            account, edit their survey responses, or delete their email messages in 2010, nor is it
            possible now.191 Moreover, Subject 2 was not the only person who monitored the CPS
            ROSCO account.192 While he did check the account at times, numerous people had
            access, and this was a task primarily undertaken by clerks in the Philadelphia Regional
            Office.193

            In sum, our investigation found no evidence supporting the allegation that Subject 1
            and/or Subject 2 manipulated subordinate’s survey data or tampered with their email to
            prevent reports of falsification.

III.	    Our investigation found no evidence supporting the allegation that the national
         unemployment rate was manipulated by the Philadelphia Regional Office in the
         months leading up to the 2012 presidential election

   In a November 2013 media report, which cited an unnamed “reliable source,” it was alleged
   that the unemployment numbers from August to September 2012 were “manipulated” and that
   “the Census Bureau, which does the unemployment survey, knew it.”194 In another media
   report, a source alleged that “there was a distinct impression in the Philadelphia office of the
   Census Bureau that someone wanted the unemployment rate to drop in the months before the




   190
       OIG IRF: Philadelphia Regional Office Field Staff Interviews, supra.

   191
       OIG IRF: Chief Information Officer Interview II, supra, at Attach. 1 at 1; 2011 IT Email, supra.

   192
       See OIG IRF: Armstrong Interview II, supra.

   193
       Id.; OIG IRF: Chief Information Officer Interview II, supra, at Attach. 2.

   194
       John Crudele, Census ‘faked’ 2012 election jobs report, New York Post, Nov. 18, 2013, available at

   http://nypost.com/2013/11/18/census-faked-2012-election-jobs-report/; see also Sarah Portlock and Ben Casselman, 

   Investigation Planned Into Jobs Data Collection, but Systemic Manipulation Unlikely, The Wall Street Journal, Nov. 19, 

   2013, available at http://blogs.wsj.com/economics/2013/11/19/investigation-planned-into-jobs-data-collection-but-
   systemic-manipulation-unlikely/.



   REPORT NUMBER 14-0073                                                                                                31
2012 presidential election. . . . Messages like ‘we need the unemployment rate to stay low
because it’s election time,’ were being disseminated by supervisors . . . .”195

This allegation has never been repeated to OIG by any of the witnesses that were interviewed
(including the Complainant).

      A. Factual Background

         To calculate the national unemployment rate, the Bureau of Labor Statistics takes the
         results of the Census Bureau’s CPS survey, performs basic data reliability tests—
         searching for outliers, oddities within categories, large shifts, etc.—and applies seasonal
         adjustments.196 Seasonal adjustments account for the influences of school closings (e.g.,
         summer employment), holidays (e.g., retail employment in December), and other
         recurring seasonal events that affect employment, enabling users of national employment
         statistics to readily make month to month comparisons.197 After reviewing the data, BLS
         contacts the Census Bureau with any questions or concerns, resolves the discrepancies,
         and issues the unemployment numbers.198

         The reinterview process—described previously—is the primary method of quality
         control for CPS data. However, reinterview often takes place after the monthly CPS
         data are provided to BLS; on average, reinterview occurs eight days after the initial
         survey data are finalized.199 If the reinterviewer determines that the original Field
         Representative may have falsified the data, the Census Bureau does not notify BLS of
         potential data errors as they happen.200

         Instead, BLS expects a minimal amount of error; error is inherent in all surveys because
         they are based on a sample of the overall population. BLS reports that a 0.2 percentage
         point change in the national unemployment rate is statistically significant at a 90-percent
         confidence level. 201 In other words, if the unemployment rate moves from 7 percent in
         June to 7.2 percent in July, BLS is 90 percent confident that the true national
         unemployment rate increased. Error is introduced in two ways: sampling error and
         nonsampling error. Examples of nonsampling error include (1) Field Representative
         falsification; (2) respondents misinterpreting questions, providing incorrect information,



195
    John Crudele, Something cheesy in Philly – and it isn’t steak, New York Post, Jan. 27, 2014, available at
http://nypost.com/2014/01/27/something-cheesy-in-philly-and-it-isnt-steak/.
196
    OIG interview of Chief, Division of Labor Force Statistics, BLS [hereinafter OIG Interview of BLS Chief of Division
Labor Force Statistics].
197
    BLS, Frequently Asked Questions, http://www.bls.gov/dolfaq/bls_ques25.htm (last visited Apr. 3, 2014).
198
    OIG Interview of BLS Chief of Division Labor Force Statistics, supra.
199
    U.S. Census Bureau, 2011-2012 CPS Quality Control Report, received Nov. 25, 2013 (on file with OIG)
[hereinafter 2011-2012 CPS QC Report].
200
    OIG Interview of BLS Chief of Division Labor Force Statistics, supra.
201
    BLS, BLS Handbook of Methods (rev. Apr. 17, 2003), available at http://www.bls.gov/opub/hom/homch1_f.htm
[hereinafter BLS Handbook].


REPORT NUMBER 14-0073                                                                                                     32
         or failing to recall information; (3) proxy responders (persons who answer on someone
         else’s behalf) providing inaccurate answers; and (4) interviewers failing to read survey
         questions appropriately.202

         On September 7, 2012, BLS announced the “employment situation” for August 2012,
         which included job growth of 96,000 and a 0.1 percentage point decrease in the
         unemployment rate from 8.2 percent to 8.1 percent.203

         On October 5, 2012, BLS announced the “employment situation” for September 2012,
         which included job growth of 114,000 and a 0.3 percentage point decrease in the
         unemployment rate from 8.1 percent to 7.8 percent.204

         On November 2, 2012, BLS announced the “employment situation” for October 2012,
         which included job growth of 171,000 and a 0.1 percentage point increase in the
         unemployment rate, from 7.8 to 7.9 percent.205

         The 2012 presidential election was held on November 6, 2012.

      B. OIG Analysis

         OIG did not find any evidence to support allegations that supervisors in the Philadelphia
         Regional Office manipulated, or attempted to manipulate, the unemployment rate prior
         to the 2012 presidential election. Nor did our investigation find any evidence to support
         that such manipulation is likely from a statistical perspective. OIG performed the
         following analyses: (1) reviewed Key Witness’s case outcomes (e.g. employed,
         unemployed, not in labor force) to assess whether he had an unexpectedly low number of
         unemployed cases in his workload; (2) assessed whether it was theoretically possible for
         Field Representatives to artificially depress the unemployment rate through falsification;
         and (3) considered the likelihood of Field Representative falsification substantively
         affecting the national unemployment rate in September 2012, given the Census Bureau’s
         quality assurance procedures, employment data trends, and interviews with more than
         75 Philadelphia Regional Office employees.

         Did Key Witness Attempt to Reduce the National Unemployment Rate through Falsification?

         The individual identified as a repeated falsifier of survey data, Key Witness, was
         removed from employment at the Census Bureau in August 2011. Key Witness’s



202
    U.S. Census Bureau, Design and Methodology, Current Population Survey, Technical Paper 66, 116, 120-21 (Oct.
2006) [hereinafter Technical Paper 66].
203
    BLS, Employment Situation News Release (Sept. 7, 2012), available at
http://www.bls.gov/news.release/archives/empsit_09072012.htm.
204
    BLS, Employment Situation News Release (Oct. 5, 2012), available at
http://www.bls.gov/news.release/archives/empsit_10052012.htm.
205
    BLS, Employment Situation News Release (Nov. 2, 2012), available at
http://www.bls.gov/news.release/archives/empsit_11022012.htm.


REPORT NUMBER 14-0073                                                                                              33
        falsification could not have impacted the unemployment numbers more than a year later.
        Still, to assess whether Key Witness falsified his cases in a systematic direction (e.g.,
        listing all cases as employed), OIG reviewed the CPS cases worked by Key Witness.206
        During August and September 2010—the two months immediately following when Key
        Witness alleges he was instructed to falsify CPS data—Key Witness completed surveys
        for 64 individuals.207 Of those 64, he classified 29 as employed, 10 as unemployed, and 25
        as not in labor force. In other words, Key Witness did not appear to falsify his cases in an
        attempt to decrease the unemployment rate—he entered 10 of his 39 in labor force
        cases (26 percent) as unemployed, nearly twenty percentage points higher than the
        national average.208

        Is it Possible to Reduce the National Unemployment Rate through Falsification?

        It is theoretically possible, though unlikely, that a large number of Field Representatives
        working in concert could depress the unemployment rate through falsification. On
        average, a CPS Field Representative contacts 30 respondents each month.209 In August
        and September 2012, roughly 2.4 of those 30 respondents would have been unemployed,
        given that the unemployment rate was approximately 8 percent.210 In other words, the
        vast majority of an average Field Representative’s caseload is employed, and, as such,
        falsifying those cases as employed has no effect on the national unemployment rate;
        instead, to reduce the national unemployment rate, a Field Representative would need
        to incorrectly label his or her unemployed respondents as employed.211 To move the
        unemployment rate by 0.1 percentage points through falsification between August and
        September 2012, the Census Bureau estimates that a group of Field Representatives
        would need to improperly change 63 of their unemployed cases to employed. Given that
        an average Field Representative only has 2.4 unemployed cases, it would take 26 Field
        Representatives (63/2.4=26.25) changing all of their unemployed cases to employed to
        reduce the national unemployment rate by 0.1 percentage points.212 To move the
        unemployment rate from 8.1 percent to 7.8 percent through falsification between
        August and September 2012, it would have taken approximately 78 Field
        Representatives changing all unemployed cases to employed.213 OIG and BLS reviewed the




206
    U.S. Census Bureau, CPS Labor Force Status Case Outcome Report for Key Witness, August-September 2010
(on file with OIG).
207
    Id.
208
    Id.
209
    OIG IRF: Review of CPS Workload Documents [hereinafter OIG IRF: Review of CPS Workload Documents].

210
    Memorandum from Chief, Demographic Statistical Methods Division, U.S. Census Bureau, to CPS Survey

Director, U.S. Census Bureau, 6 (Feb. 25, 2014) (on file with OIG) (discussing preliminary findings from 

investigation of potential CPS data falsification) [hereinafter CPS Falsification Memorandum].

211
    Alternatively, Field Representatives could have changed a similar number of unemployed cases to not in labor

force.

212
    CPS Falsification Memorandum, supra.

213
    OIG Interview of BLS Chief of Division Labor Force Statistics, supra.


REPORT NUMBER 14-0073                                                                                           34
         analysis prepared by the Census Bureau and concluded that the methodology was sound
         and supported the Census Bureau’s analysis.

         What is the Likelihood Field Representative Falsification Depressed the September 2012
         Unemployment Rate?

         It would have taken a widespread, coordinated effort—approximately 78 Field
         Representatives—to artificially depress the unemployment rate by 0.3 percentage points
         in September 2012. To do so would require escaping detection from the Census
         Bureau’s quality control measures. The Census Bureau conducted reinterview on 2,535
         Field Representatives from February 2010 to June 2011 and 3,085 Field Representatives
         from July 2011 to September 2012.214 Over those thirty months, the Census Bureau
         confirmed 35 of the 5,620 Field Representatives (0.62 percent) had falsified survey
         data.215 Of those 35, two Field Representatives, neither of whom worked in the
         Philadelphia region, falsified CPS data during September 2012.216 The Field
         Representatives completed interviews for a total of 25 individuals, listing 13 as employed
         and 12 as not in labor force.217 While neither data falsifier had any unemployed cases, it
         would still take an additional 76 Field Representatives falsifying data in September 2012
         by misclassifying unemployed respondents, while escaping detection from the reinterview
         process, to move the unemployment rate by 0.3 percentage points through
         falsification.218

         It cannot be assessed whether additional falsification escaped detection during
         reinterview; however, data trends also support that the drop in unemployment was not
         the result of falsification. The unemployment rate has not exceeded 7.9 percent since
         August 2012 and continued to fall after the presidential election (see table 3 on next
         page), meaning that, if the data were affected by falsification, undetected and systematic
         falsification would have had to continue for several months.219 Since the unemployment
         rate declined after the presidential election, standing at 6.7 percent as of March 2014, it
         is even less likely that the trend was caused by data falsification.


214
    2011-2012 CPS QC Report, supra.
215
    Id.
216
    U.S. Census Bureau, Labor Force Status Case Outcome Report for Field Representatives Who Falsified CPS
Data During September 2012 (on file with OIG).
217
    Id.
218
    In addition, OIG obtained data from the Census Bureau on Field Representative falsification that occurred
during August 2012. See August-September 2012 reinterview data received from CPS Survey Director, U.S.
Census Bureau (on file with OIG). Five Field Representatives, including three from the Philadelphia Regional Office,
were suspected of falsification in this month. See id. In August 2012, the unemployment rate was 8.1 percent;
falsification during August 2012 could not have affected the subsequent 0.3 percentage points drop in September.
Still, OIG reviewed the reinterview results for each Field Representative in order to assess whether falsification
during August 2012 occurred with intent to reduce the national unemployment rate. OIG concluded (1) it was
unlikely the Field Representatives falsified data in order to reduce the national unemployment rate and (2) there
were too few falsified cases to substantively affect the unemployment rate.
219
    See BLS, Labor Force Statistics from the Current Population Survey, http://data.bls.gov/timeseries/LNS14000000 (last
visited Apr. 8, 2014) [hereinafter BLS National Unemployment Rate].


REPORT NUMBER 14-0073                                                                                                 35
                          Table 3: National Unemployment Rate by Month

                Jan.    Feb.    Mar.       Apr.   May    June     July    Aug.    Sep.     Oct.    Nov.     Dec.
       2012      8.2     8.3     8.2       8.2    8.2     8.2     8.2      8.1     7.8      7.9     7.8      7.8

       2013      7.9     7.7     7.5       7.5    7.5     7.5     7.3      7.2     7.2      7.2     7.0      6.7

       2014      6.6     6.7     6.7

      Source: Bureau of Labor Statistics

          Alternative employment indicators independent from the CPS (and, in turn, independent
          from data collected by the Census Bureau) provide further confirmation of this trend.
          Instead of surveying individuals about their current employment status as is done in CPS,
          the BLS Current Employment Statistics (CES) program surveys businesses monthly
          about their number of nonfarm payroll workers.220 The CPS surveys individuals in order
          to determine the percentage of employed people in the United States, while the CES
          estimates aggregate employment, wages, and hours for several hundred industries. 221
          According to CES, between August 2012 and December 2013, the number of
          employees on business payrolls increased each month (see figure 4 on next page).222
          Additionally, ADP, in collaboration with Moody’s Analytics, publishes an independent
          employment report each month using payroll data from 20 percent of U.S. businesses.223
          Overall, the ADP/Moody’s payroll results closely mirror the CES—the results have a .96
          correlation—and show a similar pattern: between August 2012 and December 2013,
          payroll employment increased every month.224 If the national unemployment rate
          decreased primarily as a result of falsification on CPS, it would be unlikely for both CES
          and the ADP/Moody’s measure to show consistent monthly job growth.




220
    BLS, Technical Notes for the Current Employment Statistics Survey, http://www.census.gov/aboutus/mission.html (last

visited Apr. 7, 2014).

221
    Technical Paper 66, supra.

222
    See BLS, Data Retrieval: Employment, Hours, and Earnings (CES), http://www.bls.gov/webapps/legacy/cesbtab1.htm 

(last visited Apr. 8, 2014) (total nonfarm, seasonally adjusted data retrieved) [hereinafter BLS CES Historical Table].

223
    Moody’s Analytics, The ADP National Employment Report 3 (Oct. 2012).
224
    Automatic Data Processing, Inc. (ADP) Research Institute, National Employment Trends,
http://www.adpemploymentreport.com/ (last visited Apr. 8, 2014) (National Resources, Historical Data retrieved).


REPORT NUMBER 14-0073                                                                                                36
                              Figure 4: CES Non-farm Employment

                           Compared to the National Unemployment Rate


                    CES Non-farm
                                                      Unemployment
                     Employment
                                                           Rate
                       140,000,000                                                          10%

                       138,000,000                                                             9%

                       136,000,000                                                             8%

                       134,000,000                                                             7%

                       132,000,000                                                             6%

                       130,000,000                                                             5%
                                     Aug-12 Nov-12 Feb-13 May-13 Aug-13 Nov-13
                      Non-farm Employment (from CES)            National Unemployment Rate (from CPS)


                     Source: OIG analysis of BLS data225

            In addition, OIG conducted more than 75 interviews of Philadelphia Regional Office
            employees at all levels, from senior management to field staff. No witness mentioned
            any concerns whatsoever about manipulating the unemployment rate or anything about
            the 2012 presidential election.226

            In sum, our investigation found no evidence supporting the allegation that the national
            unemployment rate was manipulated by the Census Bureau’s Philadelphia Regional
            Office management in the months leading up to the 2012 presidential election.

IV.	     Our investigation found no evidence supporting the allegation that Fernando
         Armstrong directed falsification on the American Housing Survey in order to
         meet performance goals

   Complainant made allegations to OIG that the Philadelphia Regional Office falsified data on the
   AHS in August 2013.227 Complainant alleged that the Philadelphia Regional Office was behind its
   performance goals in the final week before the AHS closeout.228 Complainant alleged that
   Fernando Armstrong, Philadelphia Regional Office Director, removed Supervisor 4, Survey
   Statistician Office, and replaced him with Subject 1, and that Subject 1 falsified the AHS survey



   225
       BLS CES Historical Table, supra; BLS National Unemployment Rate, supra.

   226
       See generally, e.g., OIG IRF: Philadelphia Regional Office Field Staff Interviews, supra; OIG IRF: Interviews of

   Philadelphia Regional Office Program Coordinators and Survey Statisticians Office [hereinafter OIG IRF: Philadelphia 

   Regional Office Program Coordinators and Survey Statisticians Office Interviews].

   227
       OIG Hotline Complaint, dated Oct. 30, 2013 [hereinafter Hotline Complaint]; see also OIG IRF: Complainant 

   Interview, supra, at Attach 1 at Tr. 108-20.

   228
       Hotline Complaint, supra; see also OIG IRF: Complainant Interview, supra, at Attach 1 at Tr. 108-20.



   REPORT NUMBER 14-0073                                                                                              37
data to ensure that Mr. Armstrong and the Philadelphia Regional Office met performance
goals.229 In her interview with OIG, Complainant reported that she did not have any firsthand
knowledge of the alleged misconduct, but rather heard it from a “higher-up in the office” whom
Complainant declined to name.230

Fernando Armstrong and Subject 1 denied any involvement in the alleged AHS falsification
scheme.231

      A. Factual Background

         Supervisor 4 is a Survey Statistician in the Philadelphia Regional Office.232 Supervisor 4
         previously worked in the Boston office, part of the New York Regional Office.233 In the
         summer of 2013, the New York Regional Office was having a staffing shortage on the
         AHS.234 The Chief of the Census Bureau’s Field Division requested that other Regional
         Offices send staff to help the New York Regional Office.235 In August 2013, Supervisor 4
         was asked to go and assist the New York Regional Office on the AHS, specifically in the
         Boston metropolitan area (where he had previously worked) that was having the most
         significant staff shortage.236 Supervisor 4 was not the only Census Bureau employee who
         went to assist the New York Regional Office, people from all over the country came to
         help the New York region.237 For example, approximately 10-12 Field Representatives
         from the Philadelphia Regional Office were sent to help the New York Regional
         Office.238




229
    Hotline Complaint, supra; see also OIG IRF: Complainant Interview, supra, at Attach 1 at Tr. 108-20.
230
    OIG IRF: Complainant Interview, supra, at Tr. 122-29.
231
    OIG IRF: Subject 1 Interview I, supra, at Attach. 1 at 320-22, 1572-74; OIG IRF: Armstrong Interview I, supra, at
Attach. 1 at Tr. 171-73.

232
    OIG IRF: Interview of Supervisor 4, Survey Supervisor, Philadelphia Regional Office, U.S. Census Bureau, Tr. 

145-46 [hereinafter OIG IRF: Supervisor 4 Interview].

233
    Id. at 123-24.
234
    OIG IRF: Armstrong Interview I, supra, at Attach. 1 at Tr. 1799-1810; see also OIG IRF: Interview of New York
Regional Office Director, U.S. Census Bureau [hereinafter OIG IRF: New York Regional Office Director Interview].
235
    OIG IRF: Armstrong Interview I, supra, at Attach. 1 at Tr. 1799-1810. The New York Regional Office Director
confirmed that the New York Regional Office requested assistance from the Philadelphia Regional Office with the
AHS in the summer of 2013, and that Mr. Armstrong agreed to provide assistance. OIG IRF: New York Regional
Office Director Interview, supra; see also OIG IRF: Review of Fernando Armstrong’s July 2013 – August 2013 Emails
(discussions between Fernando Armstrong and New York Office Regional Director regarding the Philadelphia
Regional Office sending staff to assist the New York Regional Office with the AHS).
236
    OIG IRF: Supervisor 4 Interview, supra, at Attach. 1 at Tr. 167-73; OIG IRF: Armstrong Interview I, supra, at Attach. 1

at Tr. 1814-21.

237
    OIG IRF: Supervisor 4 Interview, supra, at Attach. 1 at Tr. 385-89.

238
    OIG IRF: Armstrong Interview I, supra, at Attach. 1 at Tr. 1814-21.



REPORT NUMBER 14-0073                                                                                                     38
           Subject 1 took over Supervisor 4’s cases at the Philadelphia Regional Office when he left
           and wrapped up the AHS.239 Since Subject 1 was closing out the survey, all of the cases
           that were remaining after months of interviewing had to be closed.240 Therefore, in that
           respect, the number of completed cases increased, but that is part of the process when
           concluding a survey.241

        B. OIG Analysis

           OIG did not find any evidence to support the allegation that Mr. Armstrong replaced
           Supervisor 4 with Subject 1 in order to falsify data on the AHS and meet performance
           goals.

           The relevant witnesses provided OIG with a credible and verifiable explanation for
           Supervisor 4’s work for the New York Regional Office in August 2013. For example, the
           New York Regional Office Director corroborated Mr. Armstrong’s version of events
           concerning Supervisor 4 assisting the New York Regional Office. OIG also reviewed
           emails between the New York Regional Office, Philadelphia Regional Office, and Census
           Bureau Field Division management that verify these events.

           In sum, our investigation found no evidence supporting the allegation that Mr.
           Armstrong directed falsification on the AHS in 2013.

V.	     Our investigation found no evidence supporting allegations of widespread
        survey data falsification in the Philadelphia Regional Office

  Several media reports have made allegations of widespread survey data falsification in the 

  Philadelphia Regional Office.242 Complainant has also alleged widespread falsification.243


        A. Factual Background

           As a part of the reinterview process, the Census Bureau analyzed the work of 2,260
           CPS interviewers from October 2007 to December 2008,244 2,377 from January 2009 to




  239
      OIG IRF: Supervisor 4 Interview, supra, at Attach. 1 at Tr. 184-192; OIG IRF: Armstrong Interview I, supra, at Attach. 1

  at Tr. 1828-43.

  240
      OIG IRF: Armstrong Interview I, supra, at Attach. 1 at Tr. 1828-43.

  241
      Id. at 1828-51.
  242
      See, e.g., John Crudele, Census may have used fishy numbers until Nov. ’13, New York Post, Mar. 10, 2014, available
  at http://nypost.com/2014/03/10/census-may-have-used-fishy-numbers-until-nov-13/; John Crudele, Census doubters
  suggest curbstoning, New York Post, Jan. 9, 2014, available at http://nypost.com/2014/01/09/census-doubters-
  suggest-curbstoning/.
  243
      Hotline Complaint, supra; see generally OIG IRF: Complainant Interview, supra, at Attach. 1.

  244
      Memorandum from Chief, Demographic Statistical Methods Division, U.S. Census Bureau, to Chief, 

  Demographic Surveys Division, U.S. Census Bureau, and Chief, Field Division, U.S. Census Bureau, 7 (Feb. 16, 



  REPORT NUMBER 14-0073                                                                                                     39
        April 2010,245 2,535 from May 2010 to June 2011,246 and 3,085 from July 2011 to
        September 2012.247 Over that time period, the Census Bureau confirmed that 78 of
        those 10,266 Field Representatives (0.78 percent) had falsified survey data in at least one
        case.248

        During the same time period, the Philadelphia Regional Office determined that 14 of the
        889 Field Representatives (1.6 percent), a subset of the 78 of 10,266 Field
        Representatives in reinterview, had falsified survey data.249

    B. OIG Analysis

        Based on our investigation and analysis, we did not find evidence to support allegations
        of widespread falsification in the Philadelphia Regional Office. While OIG found
        instances of falsification by Philadelphia Regional Office field staff (and the Census
        Bureau acknowledges that there is some falsification), we did not find any evidence that
        survey falsification is systemic to the level of impacting the national unemployment rate
        or the accuracy of Census Bureau surveys such as the AHS or the CPS.

        The Census Bureau’s reinterview operation is in place to deter, detect and mitigate
        falsification. While the Philadelphia Regional Office has the second highest rate of
        confirmed falsifications across the Census Bureau regions, its annual falsification rates
        are not atypical.250 Of the approximately 1,200 Field Representatives working out of the
        Philadelphia region, reinterview examined 889 and concluded that 14 falsified data.251 14
        confirmed falsifications over a 60-month period would be unable to substantively affect
        the CPS (see chapter 3.III).




2010) (Quality Control Reinterview Results from the 2007-2008 Current Population Survey) (on file with OIG)
[hereinafter 2007-2008 CPS QC Report].

245
    Memorandum from Chief, Demographic Statistical Methods Division, U.S. Census Bureau, to Chief, 

Demographic Surveys Division, U.S. Census Bureau, and Chief, Field Division, U.S. Census Bureau, 6 (June 25, 2010

(Quality Control Reinterview Results from the 2009-2010 Current Population Survey) (on file with OIG) 

[hereinafter 2009-2010 CPS QC Report].

246
    Memorandum from Chief, Demographic Statistical Methods Division, U.S. Census Bureau, to Acting Chief,

Demographic Surveys Division, U.S. Census Bureau, and Chief, Field Division, U.S Census Bureau, 7 (May 10, 2012) 

(Quality Control Reinterview Results from the 2010-2011 Current Population Survey) (on file with OIG) 

[hereinafter 2010-2011 CPS QC Report].

247
    2011-2012 CPS QC Report, supra.
248
    See generally 2007-2008 CPS QC Report, supra; 2009-2010 CPS QC Report, supra; 2010-2011 CPS QC Report, supra;
2011-2012 CPS QC Report, supra.

249
    See generally 2007-2008 CPS QC Report, supra; 2009-2010 CPS QC Report, supra; 2010-2011 CPS QC Report, supra; 

2011-2012 CPS QC Report, supra.

250
    See generally 2007-2008 CPS QC Report, supra; 2009-2010 CPS QC Report, supra; 2010-2011 CPS QC Report, supra;
2011-2012 CPS QC Report, supra.

251
    See generally 2007-2008 CPS QC Report, supra; 2009-2010 CPS QC Report, supra; 2010-2011 CPS QC Report, supra; 

2011-2012 CPS QC Report, supra.



REPORT NUMBER 14-0073                                                                                          40
           OIG did not assess the quality of each region’s reinterview process; thus, OIG cannot
           determine whether the Philadelphia Regional Office’s higher than average rate of
           confirmed falsification is the product of greater than average Field Representative
           falsification or the result of a robust reinterview process that catches Field
           Representatives who falsify survey data at a better than average rate.

           As discussed in chapters 3.I-3.IV, OIG extensively investigated allegations of Philadelphia
           Regional Office survey falsification regarding: (1) Subject 1 instructing subordinates to
           falsify; (2) the CPS leading up to the 2012 presidential election; and (3) the August 2013
           AHS. OIG did not find any evidence to support any of these allegations.

           As part of our investigation, OIG interviewed more than 50 Field Representatives and
           Field Supervisors, most Survey Statisticians, and senior management in the Philadelphia
           Regional Office. None of the field staff, aside from Key Witness and Complainant,
           reported ever being instructed to falsify.252 At the Philadelphia Regional Office
           supervisory and management level, while most supervisors had encountered instances of
           field staff falsification in their tenure at the Census Bureau, none reported any concerns
           of systemic falsification or a culture of falsification in the Philadelphia Regional Office.253

           In sum, our investigation found no evidence supporting allegations of widespread survey
           falsification in the Census Bureau’s Philadelphia Regional Office.

VI.     Use of Polygraph Examinations

  OIG, with the assistance of another federal agency, conducted polygraph examinations of
  Subject 1, Subject 2, and Fernando Armstrong. Although generally inadmissible in federal court,
  polygraph examinations can be a beneficial investigative tool. The allegations of falsification in
  this investigation could not easily be substantiated solely through documents or witnesses. The
  polygraph examinations helped to shed light on whether the subjects may have been involved in
  the alleged falsification scheme. The subjects voluntarily agreed to the polygraph and did not
  have counsel present during the examination.254

  Prior to the examination, each subject was interviewed by the polygraph examiner.255 Each of
  the subjects denied all allegations and stated that they never instructed anyone to falsify data
  and had never assisted in covering up data falsification.256




  252
      OIG IRF: Philadelphia Regional Office Field Staff Interviews, supra.

  253
      See OIG IRF: Philadelphia Regional Office Program Coordinators and Survey Statisticians Office Interviews, supra.

  254
      OIG IRF: Polygraph Examination Reports for Fernando Armstrong, Philadelphia Regional Office Director, U.S.
  Census Bureau, Subject 2, Program Coordinator, U.S. Census Bureau, and Subject 1, Survey Statistician Office, U.S.
  Census Bureau.
  255
      Id. at Attach. 1 at 2, Attach. 2 at 2, Attach. 3 at 2.

  256
      Id. 



  REPORT NUMBER 14-0073                                                                                               41
During the examination, the subjects were asked questions regarding their involvement in
falsifying survey data, planning or directing the falsification of survey data, and falsification of CPS
data in 2012. 257 Each of the subjects answered “no” to all questions.258 The polygraph examiner
concluded that the subjects were not being deceptive when answering the questions.259




257
    Id. at Attach. 1 at 2-3, Attach. 2 at 2-3, Attach. 3 at 2-3.
258
    Id.
259
    Id. at Attach. 1 at 2, Attach. 2 at 2, Attach. 3 at 2.


REPORT NUMBER 14-0073                                                                                 42
 Chapter 4: Observations Related to Census

 Bureau Falsification Policies

 During the course of our investigation, several observations were made concerning Key
 Witness, who was identified as an alleged repeated falsifier of survey data, and Census Bureau
 falsification policies. As discussed in chapter 3.1, Key Witness was written up by the Census
 Bureau for suspected falsification on numerous occasions, and admitted that he had falsified
 survey data when he was interviewed by OIG (though he only admitted to one or two
 occasions).

I.	    Survey supervisors do not consistently use the tools available to them for
       detecting and preventing survey data falsification

 OIG reviewed Key Witness’s monthly Current Population Survey workload from January 2010
 through his termination in August 2011. Key Witness’s CPS workload during this timeframe
 was as follows (see table 4).

                                Table 4. Key Witness’s CPS Workload

                Jan.    Feb.    Mar.    Apr.     May      June   July   Aug.   Sep.    Oct.     Nov.   Dec.
                                                                                            a
        2010     99      89      95      82       74       82    70      17     61      0        0      24

        2011     50      58      65      69       61       56    54     35b

       Source: U.S. Census Bureau260

       a
         Key Witness did not work any CPS cases in October or November 2010 because of the falsification

       investigation conducted by the Philadelphia Regional Office, per its process.

       b
         Key Witness was terminated by the Census Bureau on August 25, 2011.


 OIG reviewed the workload of all Philadelphia Regional Office Field Representatives who
 worked on the CPS during this timeframe. Assignment sizes varied, but Field Representatives
 completed, on average, approximately 30 cases during each interview period (see figure 5 on
 next page).261 Key Witness’s workloads of 99 cases in January 2010 and 95 cases in March 2010
 were greater than any other Field Representative’s workload during this time period.262 Key
 Witness completed four of the 13 largest workloads during this timeframe.263 Having an
 abnormally large workload can be an indicator of potential falsification.




 260
     OIG IRF: Review of CPS Workload Documents, supra.

 261
     Id. 

 262
     Id. 

 263
     Id.



 REPORT NUMBER 14-0073                                                                                        43
                                 Figure 5: Average CPS Workload

                             Compared with Key Witness’s CPS Workload


                  100


                   80
      CPS Cases




                   60


                   40


                   20


                    0
                    Jan-10   Apr-10       Jul-10       Oct-10        Jan-11       Apr-11         Jul-11
                                      Average Workload       Key Witness's Workload


                                                     264
        Source: OIG analysis of Census Bureau data

Subject 1, the supervisor responsible for assigning Key Witness CPS cases during this
timeframe, stated that he was unaware of why Key Witness had such a high workload.265
According to Subject 1, he took over as Key Witness’s supervisor in late 2009 and the
assignment of cases had already been made by Key Witness’s previous supervisor.266 Subject 1
explained that the Census Bureau tries to keep the same Field Representative assigned to his or
her cases throughout the survey response period, especially during ongoing surveys such as the
CPS where the same survey respondents are interviewed multiple times over a period of
time.267

Supervisor 5, Key Witness’s CPS supervisor prior to Subject 1 (from approximately December
2008 through December 2009), stated that he recalled Key Witness having a high CPS caseload,
but that these cases were already assigned by Key Witness’s previous supervisor, Supervisor
6.268 Supervisor 5 stated that he advised Subject 2 and a senior CPS supervisor, Supervisor 7,




264
    Id.
265
    OIG IRF: Interview II with Subject 1, Survey Statistician Office, U.S. Census Bureau [hereinafter OIG IRF: Subject

1 Interview II].

266
    Id.

267
    Id.

268
    OIG IRF: Interview of Supervisor 5, Former Survey Supervisor, U.S. Census Bureau.


REPORT NUMBER 14-0073                                                                                                44
about Key Witness’s high caseload, but to Supervisor 5’s knowledge, nothing was done to
address this.269

Subject 2 does not recall anyone expressing concerns regarding Key Witness’s caseload.270
Subject 2 explained that Key Witness had a larger than normal caseload, but that Key Witness’s
completion percentage was not abnormal and did not raise concerns.271 Subject 2 does not
recall any concerns about Key Witness falsifying survey data until it was identified during the
reinterview process.272

Supervisor 7 stated that while she was never Key Witness’s supervisor, she recalled him having
an abnormally high CPS caseload.273 Supervisor 7 did not recall anyone raising concerns about
Key Witness’s caseload.274

Supervisor 6, Key Witness’s CPS supervisor from approximately 2005 through November
2008, stated that she had no recollection of Key Witness’s caseload.275 Supervisor 6 stated that
she would remember if Key Witness had an abnormally large caseload and therefore does not
believe that he did while she was his supervisor.276

In sum, relative to other Philadelphia Field Representatives, Key Witness carried a large
caseload. OIG concludes that the evidence suggests Key Witness’s assignment sizes should have
raised red flags, whether with Subject 1 or Key Witness’s previous supervisor(s). While Field
Representative workloads do vary for legitimate reasons (e.g., rural versus urban assignment
area), Key Witness’s caseload was too high for too long not to have warranted closer
attention.

The Census Bureau currently provides survey supervisors with tools to help them identify and
prevent falsification. The Unified Tracking System collects paradata—or empirical
measurements about the survey process—during and after data collection.277 The Contact
History Instrument is an application in the survey instrument that captures information about
each time a Field Representative attempts to contact a household. These tools allow
supervisors to analyze specific information regarding a Field Representative’s contact attempts



269
    Id.
270
    OIG IRF: Interview of Subject 2 III, Program Coordinator, U.S. Census Bureau [hereinafter OIG IRF: Subject 2i 

Interview III].

271
    Id.

272
    Id.
273
    OIG IRF: Interview of Supervisor 7, Former Survey Statistician, U.S. Census Bureau.
274
    Id.
275
    OIG IRF: Interview of Supervisor 6 II, Survey Statistician Field, U.S. Census Bureau.
276
    Id.
277
    Chief, Technologies Management Office, Field Directorate, U.S. Census Bureau, PowerPoint Presentation,
Unified Tracking System – Cross Program Data Warehouse and Business Intelligence Project 2 (May 21, 2012) (on file
with OIG).


REPORT NUMBER 14-0073                                                                                                 45
  with all households in the Field Representative’s assignment that could potentially indicate
  falsification (e.g., an interview conducted after midnight).278 In our interviews with CPS Survey
  Statisticians Office, however, we found that some supervisors are not using these tools.279

II.	    Census Bureau employees suspected of falsifying data are sometimes allowed
        to continue working during the investigation

  Key Witness received six Five-Day Letters between July and September 2010 for suspected
  data falsification and failure to follow Census Bureau procedures.280 Despite this, Key Witness
  continued to receive assignments during this time. On October 5, 2010, Subject 2 sent Key
  Witness a memorandum stating that

  Beginning October 2010 you will not receive an assignment on CEQ, CED, or CPS until the 

  investigation of you [sic] work is complete. You remain an employee of the U.S. Census Bureau and 

  will be contacted regarding this issue once the investigation is completed.281


  The Philadelphia Regional Office proposed to remove Key Witness from his position on
  October 26, 2010282 and did not give him any CPS assignments in October and November
  2010.283 However, beginning again in December 2010, Key Witness continued to receive a
  steady workload until his termination in August 2011.284 This steady workload continued
  despite Key Witness receiving two additional Five-Day Letters in February and March 2011 for
  suspected data falsification and failure to follow procedures.285

        A.	 Advice from the Department of Commerce Office of General Counsel has hindered the Census
            Bureau from removing survey work from suspected data falsifiers

           Subject 1, the supervisor responsible for Key Witness’s CPS assignments, stated that he
           was instructed by his supervisors, Subject 2 and Supervisor 2, former Assistant Regional
           Director for the Philadelphia Regional Office, to keep Key Witness’s caseload at his
           average levels during the course of Key Witness’s falsification investigation.286 Supervisor



  278
      Id. at 5-6; CPS CAPI 270, supra, at 1-6, 5-2.
  279
      OIG Interviews of Survey Statisticians Office, supra. 

  280
      See Five-Day Letter 1, supra; Five-Day Letter 2, supra; Five-Day Letter 3, supra; Five-Day Letter 4, supra; Five-Day Letter 

  5, supra; Five-Day Letter 6, supra.

  281
      Memorandum from Subject 2, Program Coordinator, U.S. Census Bureau, to Key Witness, Field Representative,
  U.S. Census Bureau (Oct. 5, 2010) (on file with OIG).

  282
      See Letter from Subject 2, Program Coordinator, U.S. Census Bureau, to Key Witness, Field Representative, 

  U.S. Census Bureau (Oct. 26, 2010) (on file with OIG).
  283
      OIG IRF: Review of CPS Workload Documents, supra.

  284
      Id. 

  285
      See Five-Day Letter 7, supra; Five-Day Letter 8, supra.
  286
      OIG IRF: Subject 1 Interview II, supra.


  REPORT NUMBER 14-0073                                                                                                         46
         2 and Subject 2 advised Subject 1 that a reduction in workload, and subsequently pay,
         could be considered punitive while an investigation was ongoing.287

         Subject 2 stated that the instruction to put Key Witness back to work after he had
         taken away Key Witness’s cases came from the Department’s Office of General
         Counsel.288 Subject 2 stated that he did not speak directly with the attorneys, but rather
         the information was relayed to him by Supervisor 2 or Mr. Armstrong.289

         Mr. Armstrong stated that until recent policy changes in 2014, the Office of General
         Counsel and/or the Census Bureau’s Employee Relations Branch had not allowed the
         Philadelphia Regional Office to place an employee on administrative leave and pull his or
         her cases while the employee was being investigated for falsification.290 Mr. Armstrong
         stated that while this may explain Key Witness initially continuing to receive assignments
         after the suspected falsification (i.e., his assignments in July, August and September 2010),
         Key Witness received assignments again from December 2010 through August 2011 due
         to the fact that Key Witness had filed a complaint of employment discrimination.291 Mr.
         Armstrong stated that he was informed that the action of taking away Key Witness’s
         cases may have been viewed as retaliatory prior to the adjudication of Key Witness’s
         employment discrimination case.292 Mr. Armstrong stated that he received advice from
         the Office of General Counsel and/or the Employee Relations Branch that because of
         the time an investigation would take, he should return Key Witness to work status.293
         Mr. Armstrong stated that there was a fear that Key Witness would allege that his
         removal from work was “progressive discipline.”294

         The Chief of the Census Bureau’s Employee Relations Branch stated that Key Witness’s
         removal process took a particularly long time—over a year from the first Five-Day
         Letter—because Key Witness made an allegation that he was directed to commit
         falsification by a supervisor.295 After receiving this information, and based upon
         instructions from the Office of General Counsel, the Employee Relations Branch



287
    Id.
288
    OIG IRF: Subject 2 Interview III, supra.
289
    Id.
290
    OIG Case Note 74, Discussion with Fernando Armstrong [hereinafter Case Note 74].
291
    Id. Key Witness contacted the Equal Employment Opportunity Office on August 10, 2010, with allegations that
he was being accused of falsifying information due to his race, and that management was continually accusing him of
falsification in retaliation for filing his discrimination complaint. See Key Witness Equal Opportunity Report, supra, Ex. 1
(Letter from Chief, Equal Employment Opportunity Program, to Key Witness dated Sept. 24, 2010). Key Witness
filed a complaint on October 7, 2010. Id. Ex. 2 (Oct. 7, 2010, Complaint of Employment Discrimination).
292
    Case Note 74, supra.
293
    OIG IRF: Interview of Fernando Armstrong III, Philadelphia Regional Office Director, U.S. Census Bureau

[hereinafter OIG IRF: Armstrong Interview III].

294
    Id.

295
    OIG IRF: Interview of Chief, Employee Relations Branch, U.S. Census Bureau 2 [hereinafter OIG IRF: Chief,

Employee Relations Branch].



REPORT NUMBER 14-0073                                                                                                     47
          suspended their removal process pending resolution of these allegations by OIG. 296
          Once the previous OIG investigation (11-0135) was completed, the removal process
          was restarted and Key Witness was removed effective August 25, 2011.297

          A senior attorney in the Employment and Labor Law Division, Office of General
          Counsel, stated that his office’s records indicate that two attorneys in his group
          provided advice to the Census Bureau on potential disciplinary action against Key
          Witness, but they both are no longer employed by the Department of Commerce.298
          Documents provided to OIG by the Office of General Counsel did not include any
          record of advice from the Office of General Counsel to the Census Bureau to suspend
          its removal proceedings and/or return Key Witness to work status.299 OIG has not
          located any records of advice or instructions from the Office of General Counsel in
          approximately December 2010 for the Census Bureau to give Key Witness his work
          back.

          OIG located March 2011 emails between Philadelphia Regional Office management, the
          Employee Relations Branch, and the Office of General Counsel concerning Key Witness.
          In these emails, Philadelphia Regional Office management complain about how long the
          process has taken, that Key Witness has continued to fail reinterview, and that they
          would like to pull Key Witness’s work.300 Despite these complaints, Key Witness
          continued to receive cases until he was terminated from his position at the Census
          Bureau on August 25, 2011.301

      B. Regional Office falsification policies are inconsistent

          The Chief of the Census Bureau’s Employee Relations Branch also informed OIG that
          during the process of investigating an employee for falsification, there is not a
          standardized Census Bureau policy on what the temporary status of the accused
          employee should be.302 Each Regional Office is free to set its own policy.303 The Regional
          Office has the ability to place an employee on administrative leave (based on an average




296
    Id.
297
    Id.
298
    OIG IRF: Review of Documents from Employment and Labor Law Division, Office of General Counsel,
Department of Commerce.
299
    Id.
300
    See Emails between Philadelphia Regional Office Management, U.S. Census Bureau Employee Relations Branch,
and the Department of Commerce Office of General Counsel (on file with OIG).
301
    See OIG IRF: Review of CPS Workload Documents, supra.
302
    OIG IRF: Interview of Chief, Employee Relations Branch, supra, at 2.
303
    Id.


REPORT NUMBER 14-0073                                                                                           48
          of the last six weeks of pay), give the employee two hours of pay a week per the terms
          of the employment agreement, or suspend the employee without pay.304

          OIG learned from speaking with CPS Survey Statisticians Office in each of the six
          Regional Offices that procedures related to falsification vary by region and that Field
          Representatives who are being investigated for falsification are allowed to continue to
          collect survey data during the investigative process. OIG found that one region removes
          all survey work from the Field Representative upon issuance of the Five-Day Letter.305
          However, if the Field Representative disputes the claim but the Survey Statistician Office
          still suspects that falsification occurred and chooses to pursue the investigative process,
          the Field Representative is allowed to return to work.306 In this region, the Field
          Representative is allowed to conduct interviews up to the point that the Employee
          Relations Board approves his or her termination due to confirmed data falsification.307
          The practice in this region is to allow the suspected Field Representative to continue to
          work in order to establish a trend of falsification.308 In speaking with staff from the other
          regions, we found that the treatment and management of a Field Representative
          suspected of falsification is largely left to the supervisor’s discretion—typically, a Field
          Representative suspected of falsification has his or her survey work taken away from
          them at some point in the process, but it varies from the issuance of the five-day letter,
          to when the Survey Statistician Office receives the Field Representative’s response to
          the letter, to the completion of the investigative process and proposed final action
          against the Field Representative.309 In most regions, the suspected Field Representative’s
          ability to continue to work during the process is determined on a case-by-case basis.310

          OIG concludes that the evidence suggests Key Witness should not have been allowed to
          continue working on surveys subsequent to multiple reports of his falsifying survey data.
          There are no uniform Census Bureau policies on this topic, nor is there any consistency
          in how the Regional Offices handle instances of suspected falsification. Key Witness
          should not have been allowed back in the field and given new survey assignments simply
          because he made allegations of a supervisor directing falsification and/or employment
          discrimination. This creates a perverse incentive for Census Bureau employees to file
          false complaints when suspected of falsification (or other misconduct) to delay any
          action being taken against them. Even if Key Witness could not be terminated while
          OIG’s investigation was pending, there were other options available rather than sending
          Key Witness back out in the field with new survey assignments.




304
    Id.
305
    OIG Interviews of Survey Statisticians Office, supra.

306
    Id.

307
    Id.

308
    Id.

309
    Id.

310
    Id.



REPORT NUMBER 14-0073                                                                                49
III.	    The quality assurance operation in the Regional Office is not independent,
         creating potential conflicts of interest

   For ongoing survey operations (e.g., CPS), within each Regional Office there is a single set of
   managers and supervisors (i.e., Program Coordinators, Survey Statisticians Office, Survey
   Statisticians Field, and Field Supervisors) who are responsible for both regular interview
   operations and reinterview operations.311 Managers and supervisors are, at least in part,
   assessed based on the performance of the Field Representatives under their supervision.312
   Reinterview assesses the quality of interviews conducted by those Field Representatives.313 This
   arrangement lacks internal controls and creates potential conflicts of interest by asking a
   supervisor to review the work of Field Representatives on whose performance (at least
   partially) that supervisor’s performance is assessed.

   The quality assurance operation conducted during the Decennial Census, in which data
   collection and reinterview duties are segregated, is more appropriate and eliminates the
   potential conflicts of interest that ongoing survey operations introduce by asking supervisors to
   manage both data collection and reinterview. Each Local Census Office included a parallel, but
   separate, organization of office and field staff who were responsible for quality assurance.314 The
   independent nature of regular and reinterview operations during Decennial field work removed
   opportunities for conflicts of interest. See figure 6 (next page) for a depiction of the difference
   between Regional Office and Decennial Census quality assurance operations.




   311
       See Chapter 2.I, Field Organization and Regional Office Management Structure, and Survey Data Collection,
   supra.

   312
       See id. at Field Organization and Regional Office Management Structure, Survey Data Collection, and

   Performance, supra.

   313
       See id. at Quality Assurance, supra.
   314
       See U.S. Census Bureau, 2010 Census Nonresponse Followup – Enumerator Manual 17, 110 (July 2009) [hereinafter
   Census Nonresponse Followup Enumerator Manual].


   REPORT NUMBER 14-0073                                                                                          50
         Figure 6. Regional Office (Ongoing Surveys) Quality Assurance Compared with

             Local Census Office (Decennial Census Operations) Quality Assurance


                           Regional Office                                   Local Census Office


                                                                                              Field Operations
                                 Survey                            Field Operations              Supervisor
                               Supervisor                             Supervisor                 for Quality
                                                                                                 Assurance




                   Survey                    Quality                                               Quality
                                                                   Field Operations
                  Operations                Assurance                                             Assurance




            Source: OIG analysis of Census Bureau information

IV.	     Current Population Survey procedural manuals and training materials are
         outdated, inconsistent, and do not discuss falsification

   Certain Census Bureau policies and manuals have not been updated to reflect the reorganized
   Regional Office field structure that was finalized in January 2013. More than a year later,
   Regional Office staff still use outdated materials to manage survey operations and train new
   hires. For example, the CPS office manual has not been updated since 2010 and refers to the
   now defunct Senior Field Representative position;315 the CPS reinterviewer’s self-study has not
   been updated since 2012;316 and the CPS preclassroom self-study refers to the defunct Senior
   Field Representative position, does not differentiate between Survey Statistician Office and
   Survey Statistician Field, and instructs a new hire to call his or her “supervisor in the RO
   [Regional Office]”317 when, under the new structure, a Field Representative should contact his
   or her Field Supervisor regarding any problems in the field.318 Additionally, the CPS
   reinterviewer’s manual was updated in April 2013, yet it still uses the obsolete terms: “SFR
   [Senior Field Representative]” and “RO [Regional Office] supervisor” and states that “CPS
   reinterview must be conducted by a Supervisor, SFR [Senior Field Representative], or
   Supervisory Clerk”,319 when reinterview is conducted by a Field Supervisor or a Survey


   315
       CPS Office Manual, supra.
   316
       See generally U.S. Census Bureau, Current Population Survey CAPI Reinterview – Reinterviewer’s Self-Study (rev. Nov.
   2012).
   317
       CPS CAPI 271, supra.
   318
       Update on Census Bureau Field Activities, supra.

   319
       See U.S. Census Bureau, Current Population Survey CAPI 252, Reinterviewer’s Manual 9 (Apr. 2013). 



   REPORT NUMBER 14-0073                                                                                                  51
Statistician Field.320 Finally, the on-the-job training form used to conduct initial observations for
new hires was last updated in 2011 and refers to the defunct Senior Field Representative
position.321 At the very least, these outdated materials cause extra work for trainers and
confusion during the training process for new hires; at worst, the outdated materials and
erroneous and conflicting instructions can lead to wasted time in the field and even errors in
data collection.

The CPS materials, which the Census Bureau uses to train new hires, do not mention the
prohibition against data falsification and its consequences, though the materials do instruct Field
Representatives to remind respondents of the possibility of a follow-up visit for reinterview.322
The materials do, however, include numerous references to the Census Bureau’s confidentiality
policy.323 Moreover, every Census Bureau employee is required to swear an oath of office “not
[to] disclose any information . . . to any persons[,] either during or after [your] employment.”324
As evidenced by the focus on confidentiality, the Census Bureau has ample opportunity to
discuss data falsification and its consequences with new hires, yet it chooses not to do so.

In contrast to ongoing survey Field Representatives, Decennial enumerators (i.e. Field
Representatives) who worked on Census 2010 operations were given clear and explicit
definitions of what constituted falsification, instructions to not falsify data, as well as clearly
stated consequences for intentionally falsifying data:

      Data falsification is intentionally and deliberately entering wrong information. . . .
      You must not submit falsified work under any circumstances. If you willfully falsify
      information . . ., you can be found guilty of perjury . . . and may be fined up to $250,000 and/or
      imprisoned up to five years. You may be removed from federal service and prohibited from
      future federal employment.325

Additionally, Decennial Census supervisors were instructed, in the case of confirmed
falsification or failure to follow census procedures, to terminate that employee’s employment
with the Census Bureau and reassign all of that employee’s remaining work.326




320
    Assistant Division Chief for Evaluation and Research, Field Division Email 1, supra.

321
    On-The-Job Training & Induction Checklists, supra.

322
    CPS CAPI 270, supra.

323
    Census CAPI Training Guide, supra; Census CAPI Preclassroom Self-Study, supra.

324
    U.S. Census Bureau, Appointment Affidavits (Sept. 13, 2006).

325
    Census Nonresponse Followup Enumerator Manual, supra, at 1-7 (emphasis in original).

326
    U.S. Census Bureau, Nonresponse Followup – Crew Leader Manual 87 (Aug. 2009).



REPORT NUMBER 14-0073                                                                                      52
  Chapter 5: Other Observations

  During the course of our investigation, several other allegations and observations were made
  warranting discussion in this Report.

 I.	     Census Bureau communications with field staff

  Philadelphia Regional Office field staff expressed concerns regarding a high-pressure 

  environment and management communications.


         A. Factual Background

              During our interviews of Philadelphia Regional Office field staff, many employees
              reported intense pressure from management to complete interviews in short periods of
              time, and that management expectations were unrealistic.327 Field staff also reported
              concerns, and provided inconsistent answers, on how to handle and classify partial and
              non-interviews, as well as a lack of knowledge of the relevant Census Bureau policies.328

         B. OIG Analysis

              Having clear communications with employees is an important function of effective
              management. Moreover, managing efficiency and striving for increased employee
              productivity is a key responsibility of management at not only the Census Bureau, but at
              any government agency. However, the means of communicating expectations appears to
              have caused confusion, and perhaps may be misinterpreted, by certain field staff. The
              evidence suggests that instructions for completing surveys are ambiguous and may be
              taken by field staff to get results at any cost. Further, the evidence suggests Philadelphia
              Regional Office field staff is not sufficiently informed on how to appropriately handle and
              classify partial and non-interviews.

II.	     Department of Commerce Office of General Counsel handling of employees
         who are witnesses to Congressional investigation

  Complainant alleged that the Department’s Office of General Counsel inappropriately 

  publicized her name as a witness to the Congressional investigation. Complainant further 

  alleged that the Office of General Counsel attempted to coach her in preparation for her

  Congressional interview and interfered with Congressional requests for her to produce 

  documents.





  327
        OIG IRF: Philadelphia Regional Office Field Staff Interviews, supra.

  328
        See id. at Attach. 1 (various interview worksheets).



  REPORT NUMBER 14-0073                                                                                 53
    A. Factual Background

        On November 22, 2013, the House Committee on Oversight and Government Reform
        sent a letter to John H. Thompson, Director, U.S. Census Bureau, requesting that the
        Census Bureau make seven current and former Census Bureau employees available for
        transcribed interviews.329 Complainant informed OIG that a copy of this letter was
        provided by the Office of General Counsel to all seven employees on the list, which
        includes her supervisors and are the same supervisors that she has levied accusations
        against.330 OIG verified with several other Census Bureau employees on the interview
        list that they had received the letter from the Office of General Counsel containing all of
        the names.331

        According to Complainant, the Office of General Counsel attempted on several
        occasions to meet with her prior to her Congressional interview.332 OIG inquired of the
        Office of General Counsel its intentions in requesting to meet with Complainant and the
        other witnesses.333 An Office of General Counsel representative informed OIG that they
        wished to speak to these individuals to prepare them for the interviews and because
        most of them have never appeared before Congress.334

        Complainant informed OIG that after Congress requested certain documents at her
        interview, an attorney present from the Office of General Counsel advised that it would
        be best for her not to provide the documents to Congress.335 However, Complainant
        further informed OIG that on the next day, an Office of General Counsel representative
        called her and informed her that it would be okay for Complainant to provide the
        documents to Congress.336 Complainant later provided a different account to OIG—that
        the Office of General Counsel had not called her and told her it was okay to provide
        documents.337 Complainant stated that she had not withheld any documents from
        Congress.338




329
    Letter from U.S. House of Representatives Comm. on Oversight & Gov’t Reform to the Honorable John H.
Thompson, Director, U.S. Census Bureau (Nov. 22, 2013) (on file with OIG).

330
    OIG Case Note 31, Communication with Complainant [hereinafter OIG Case Note 31]; OIG Case Note 36, 

Communication with Complainant [hereinafter OIG Case Note 36].

331
    See OIG IRF: Review of Emails from the Office of General Counsel to Fernando Armstrong, Philadelphia

Regional Office Director, U.S. Census Bureau, Subject 2, Program Coordinator, U.S. Census Bureau, and Subject 1, 

Survey Statistician Office, U.S. Census Bureau.

332
    OIG Case Note 31, supra; OIG Case Note 36, supra. 

333
    OIG Case Note 32, Communication with Office of General Counsel.

334
    Id.
335
    OIG Case Note 56, Communication with Complainant.
336
    Id.
337
    OIG IRF: Complainant Interview, Case No. 14-0212, Attach. 1 at Tr. 3162-95.
338
    Id.


REPORT NUMBER 14-0073                                                                                          54
    B. OIG Analysis

        This allegation is outside the purview of this Report. Complainant has filed separate
        complaints with OIG and another entity with appropriate jurisdiction regarding the
        Office of General Counsel’s handling of this matter. Moreover, there is still a pending,
        open Congressional investigation into the allegations of falsification at the Census
        Bureau.

        OIG notes that the Census Bureau (and any Department of Commerce bureau) should
        fully comply and not interfere with any government entity that has oversight
        responsibility.




REPORT NUMBER 14-0073                                                                              55
Chapter 6: Recommendations

Based on our investigative findings, OIG makes the following recommendations to the U.S.
Census Bureau.

    1.	 Implement a reporting mechanism for confirmed data falsifications to survey
        sponsors. Currently, for instance, the Census Bureau does not notify the Department of
        Labor’s Bureau of Labor Statistics about specific instances of Current Population Survey
        falsification. Irrespective of whether falsification has a statistical impact on survey results,
        BLS and other survey sponsors have cognizance and should be informed in the interest
        of transparency and full disclosure.

    2.	 Implement a formal policy that prohibits employees suspected of falsification
        from collecting survey data during the investigative process. Under current Census
        Bureau policies, employees suspected of falsifying data are sometimes allowed to
        continue working during the falsification investigation. A policy prohibiting suspected
        data falsifiers from collecting survey data will prevent them from submitting additional
        inaccurate survey results.

    3.	 Update procedural manuals and training materials to reflect current Regional
        Office field structure and inform Field Representatives about survey data
        falsification and the consequences of committing falsification. Materials used by the
        Census Bureau to conduct day-to-day survey operations and train new employees
        include references to obsolete Regional Office supervisory arrangements and positions.
        Training materials for new employees do not discuss survey falsification. Educating new
        employees about survey data falsification and emphasizing the consequences of
        falsification may discourage Field Representatives from falsifying survey data.

    4.	 Implement an independent quality assurance process for all survey operations.
        The Census Bureau assesses supervisor performance, at least in part, by the work of a
        supervisor’s Field Representatives, and the quality assurance process (i.e., reinterview)
        assesses the quality of the Field Representatives’ work. Currently, the same Regional
        Office supervisor is responsible for both the interview process and the quality assurance
        process, creating a potential conflict of interest. During the last Decennial Census,
        quality assurance employees and supervisors were independent from other operations,
        reducing the risk of conflicts of interest.

    5.	 Ensure that all survey supervisors tasked with detecting and preventing survey
        data falsification are properly utilizing all available tools to safeguard against
        such misconduct. While the Census Bureau currently has tools available for identifying
        potentially falsified cases, supervisors rely primarily on the quality assurance process.
        For example, the Contact History Instrument provides the time of day Field
        Representatives attempt to contact respondents. Interviews conducted late at night (e.g.,
        after midnight) are at a greater risk for falsification.




REPORT NUMBER 14-0073                                                                                 56
    6.	 Implement internal controls to effectively monitor and limit Field Representative
        workloads in order to reduce the risk of falsification. To further reduce the risk for
        survey data falsification, supervisors should scrutinize workloads and staffing levels to
        avoid assigning atypically large workloads to Field Representatives.

OIG recently learned that Census Bureau management is working to address some of these
concerns, which were raised during the course of our investigation.




REPORT NUMBER 14-0073                                                                           57
Appendix A: Legal Authorities
13 U.S.C.

United States Code, 2010 Edition
Title 13 - CENSUS
CHAPTER 7 - OFFENSES AND PENALTIES
SUBCHAPTER I - OFFICERS AND EMPLOYEES
Sec. 213 - False statements, certificates, and information

§213. False statements, certificates, and information

    (a) Whoever, being an officer or employee referred to in subchapter II of chapter 1 of this
title, willfully and knowingly swears or affirms falsely as to the truth of any statement required
to be made or subscribed by him under oath by or under authority of this title, shall be guilty of
perjury, and shall be fined not more than $2,000 or imprisoned not more than five years, or
both.
    (b) Whoever, being an officer or employee referred to in subchapter II of chapter 1 of this
title—
       (1) willfully and knowingly makes a false certificate or fictitious return; or
       (2) knowingly or willfully furnishes or causes to be furnished, or, having been such an
    officer or employee, knowingly or willfully furnished or caused to be furnished, directly or
    indirectly, to the Secretary or to any other officer or employee of the Department of
    Commerce or bureau or agency thereof, any false statement or false information with
    reference to any inquiry for which he was authorized and required to collect information
    provided for in this title—

   shall be fined not more than $2,000 or imprisoned not more than five years, or both.




REPORT NUMBER 14-0073                                                                           58
Appendix B: Selected Census Bureau Surveys

    Table B-1. Selected Reimbursable and Bureau-Sponsored Household Surveys

                                                                                                 Estimated
                                                                                                  FY 2015
                                                                                 Field           Obligation
Reimbursable Household Surveys                                              Representativesb   ($ in millions)
                         Sponsored by the U.S. Department of Housing
                         and Urban Development, the AHS has
                         collected housing and demographic data since
American Housing
                         1973 to monitor supply and demand, changes              3828              $54.5
Surveya
                         in housing conditions and costs, as well as to
                         advise the executive and legislative branches in
                         the development of housing policies.

                         Jointly sponsored by the Census Bureau and
                         the Bureau of Labor Statistics, the CPS is the
                         primary source of labor force statistics in the
Current Population
                         United States. CPS data help generate the               2561              $53.0
Survey
                         national unemployment rate and illustrate both
                         national labor market conditions, as well as
                         those of various population groups.

                         Sponsored by the Department of Justice’s
                         Bureau of Justice Statistics, the NCVS reports
National Crime and
                         on the amount and kinds of crime that                   1033              $30.4
Victimization Survey
                         household members encounter during a six-
                         month period.

                         Sponsored by the Bureau of Labor Statistics,
Consumer                 the CE collects information on the buying
                                                                                  776              $28.7
Expenditure Survey       habits of American consumers to update the
                         Consumer Price Index.

                         Sponsored by the Department of Health and
                         Human Services’ National Center for Health
National Health          Statistics, the NHIS collects information about
                                                                                 1061              $25.4
Interview Survey         household members’ illnesses, injuries, and
                         impairments, as well as the kind of health
                         services they receive.

National Ambulatory      Sponsored by the Centers for Disease Control
Medical Care Survey      and Prevention, the NAMCS and the
                         NHAMCS provide objective, reliable
National Hospital                                                                 650              $13.7
                         information about the provision and use of
Ambulatory Medical       ambulatory medical care services in the United
Care Survey              States.

                                                             Other Reimbursable Work              $109.9
                                                      Total Reimbursable Obligations              $315.0


REPORT NUMBER 14-0073
                                                                                           59
                                                                                                Estimated
                                                                                                 FY 2015
                                                                                Field           Obligation
Census Bureau-Sponsored Household Surveys                                  Representativesb   ($ in millions)
                         Conducted monthly since 2005 in every
                         county nationwide to collect timely
                         demographic, social, economic, and housing
                         data. The ACS enables the Bureau to release
                         annual population and housing estimates for
                         areas with at least 65,000 residents. Every
                         three years, the Bureau releases the same
American Community
                         information for areas with at least 20,000             2,679             $234.4
Survey
                         residents, and in 2010, the Bureau released the
                         first estimates at the Census tract and block
                         level—the most precise geographic level
                         available. The ACS replaced the decennial
                         census long form, providing the same
                         comprehensive information in a timelier
                         manner.

                         As the premier source of information about
                         income and participation in government
                         assistance programs, SIPP data provide for the
                         examination of various government and private
                         policies; help evaluate annual and sub-annual
Survey of Income and     income dynamics; movement into and out of
                                                                                 347              $45.4
Program Participation    government transfer or assistance programs;
                         and effects of changing family and social
                         situations for individuals and households.
                         These data provide a comprehensive look at
                         how the nation’s economic well-being changed
                         over time.

Source: OIG analysis of U.S. Census Bureau information
a
    Last conducted in 2013 and will be conducted again in 2015

b
    Numbers are not unique; many Field Representatives work on more than one survey





REPORT NUMBER 14-0073
                                                                                          60
Appendix C: Subject Comments

OIG provided the subjects an opportunity to review and comment on portions of the Report
that pertain to them. Mr. Armstrong and Subject 2 informed OIG that they did not have any
comments.339

Subject 1 informed OIG that he only had comments regarding Chapter 4.340 Subject 1
commented that there is nothing in Chapter 4 that states that the Senior Field Representative
“is the one who ok’s and adds/subtracts work from her field representatives.”341 According to
Subject 1, each month Senior Field Representatives “would receive paper forms with each of
their team members pre determined workloads. [Senior Field Representatives] had the ability
to add or remove cases from one team member to another which happened all the time.”342




339
    See Fernando Armstrong and Subject 2’s comments to Report excerpts provided to OIG.
340
    Subject 1’s comments to Report excerpts provided to OIG.
341
    Id.
342
    Id.


REPORT NUMBER 14-0073                                                                           61
